<html>
<title> - JIHAD 2.0: SOCIAL MEDIA IN THE NEXT EVOLUTION OF TERRORIST RECRUITMENT</title>
<body><pre>[Senate Hearing 114-438]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 114-438
 
 JIHAD 2.0: SOCIAL MEDIA IN THE NEXT EVOLUTION OF TERRORIST RECRUITMENT

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS


                             FIRST SESSION

                               __________

                              MAY 7, 2015

                               __________

        Available via the World Wide Web: http://www.fdsys.gov/

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs
        
        
        
        
        
        
        
        
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







                         

                    U.S. GOVERNMENT PUBLISHING OFFICE
                   
 95-653 PDF                  WASHINGTON : 2016       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001          
        
        
        
        
        
        
        
        
        
        
        

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                    RON JOHNSON, Wisconsin Chairman
JOHN McCAIN, Arizona                 THOMAS R. CARPER, Delaware
ROB PORTMAN, Ohio                    CLAIRE McCASKILL, Missouri
RAND PAUL, Kentucky                  JON TESTER, Montana
JAMES LANKFORD, Oklahoma             TAMMY BALDWIN, Wisconsin
MICHAEL B. ENZI, Wyoming             HEIDI HEITKAMP, North Dakota
KELLY AYOTTE, New Hampshire          CORY A. BOOKER, New Jersey
JONI ERNST, Iowa                     GARY C. PETERS, Michigan
BEN SASSE, Nebraska

                    Keith B. Ashdown, Staff Director
               Mark K. Harris, U.S. Coast Guard Detailee
             David S. Luckey, Director of Homeland Security
              Cory P. Wilson, U.S. Secret Service Detailee
              Gabrielle A. Batkin. Minority Staff Director
           John P. Kilvington, Minority Deputy Staff Director
       Harlan C. Geer, Minority Senior Professional Staff Member
                     Laura W. Kilbride, Chief Clerk
                   Lauren M. Corcoran, Hearing Clerk
                   
                   
                   
                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Johnson..............................................     1
    Senator Carper...............................................     3
    Senator Sasse................................................    21
    Senator Peters...............................................    23
    Senator Booker...............................................    25
    Senator Ayotte...............................................    28
    Senator Portman..............................................    30
Prepared statements:
    Senator Johnson..............................................    43
    Senator Carper...............................................    44

                               WITNESSES
                         Thursday, May 7, 2015

Peter Bergen, Director, International Security Program, New 
  America, and Professor of Practice, Arizona State University...     4
J.M. Berger, Non-resident Fellow, Project on U.S. Relations with 
  the Islamic World, The Brookings Institution...................     6
Mubin Shaikh, Author, ``Undercover Jihadi''......................     9
Daveed Gartenstein-Ross, Senior Fellow, Foundation for Defense of 
  Democracies....................................................    12

                     Alphabetical List of Witnesses

Bergen, Peter:
    Testimony....................................................     4
    Prepared statement...........................................    45
Berger, J.M.:
    Testimony....................................................     6
    Prepared statement...........................................    65
Gartenstein-Ross, Daveed:
    Testimony....................................................    12
    Prepared statement...........................................    89
Shaikh, Mubin:
    Testimony....................................................     9
    Prepared statement...........................................    71

                                APPENDIX

Information submitted by Mr. Shaikh..............................    85
Chart referenced by Senator Johnson..............................   100
Information submitted by Senator Booker..........................   101
Response to post-hearing questions submitted by Mr. Gartenstein-
  Ross...........................................................   104


 JIHAD 2.0: SOCIAL MEDIA IN THE NEXT EVOLUTION OF TERRORIST RECRUITMENT

                              ----------                              


                         THURSDAY, MAY 7, 2015

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:32 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Ron Johnson, 
Chairman of the Committee, presiding.
    Present: Senators Johnson, Portman, Ayotte, Ernst, Sasse, 
Carper, Booker, and Peters.

             OPENING STATEMENT OF CHAIRMAN JOHNSON

    Chairman Johnson. This hearing is called to order.
    I am looking at the title of the hearing, ``Jihad 2.0: 
Social Media in the Next Evolution of Terrorist Recruitment.'' 
Unfortunately, I think that is a wrong title. It is really the 
current evolution of terrorist recruitment. We have got a panel 
of, I think, some excellent witnesses to lay out the reality, 
which is what we are always trying to do in this Committee. If 
you are going to solve a problem, you have to first recognize 
and acknowledge that reality. And so I think we have a good 
panel.
    I would ask consent to enter my written prepared statement 
into the record,\1\ and it is always granted because our 
Ranking Member is such a kind gentleman.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Johnson appears in the 
Appendix on page 43.
---------------------------------------------------------------------------
    What I would like to do is talk a little bit about an the 
Islamic State of Iraq and al-Sham (ISIS) message that warns of 
71 trained soldiers in 15 U.S. States, 23 signed up for 
missions. I am just going to read some excerpts here because--
first of all, let me say we have no knowledge whether this is 
true or not. I think some of our witnesses will probably say it 
is bluster. Let us hope so. But this is a perfect example of 
what ISIS is trying to do and how they are trying to use social 
media.
    And, of course, this is claiming credit for the terrorist 
attacks in Texas. Excerpts read:
    ``The attack by the Islamic State (IS) in America is only 
the beginning of our efforts to establish a province in the 
heart of our enemy.''
    ``We knew that the target was protected. Our intention was 
to show how easy we give our lives for the sake of Allah.''
    ``Out of the 71 trained soldiers, 23 have signed up for 
missions like Sunday. We are increasing in number.''
    ``Of the 15 States, 5 we will name: Virginia, Maryland, 
Illinois, California, and Michigan.''
    ``The disbelievers who shot our brothers think that you 
killed someone untrained. Nay. They gave their bodies in plain 
view because we were watching.''
    They go on to say: ``The next 6 months will be 
interesting.'' Let us hope not.
    As I am being briefed for this hearing--and, by the way, 
the reason we always call these hearings is I have questions. I 
need to understand what these problems are. So I am always 
learning a lot, and I am going to learn a lot more through the 
testimony. But I like timelines, and so I had my staff prepare 
just for 2015 the timeline of potential terrorist plots that 
have been foiled, the arrests that have been made of 
individuals who have been inspired by ISIS and other Islamic 
terrorists.
    If you go through the list, we had Christopher Lee from 
Cincinnati, Ohio, who was planning to come to the U.S. Capitol 
to bomb and then, with two semiautomatic weapons, open fire on 
people fleeing the Capitol. That was on January 14.
    February 25, three Brooklyn men were arrested.
    March 17, a former U.S. Air Force veteran was arrested 
after a failed attempt to cross the border into Syria.
    March 25, an Army National Guard specialist was arrested 
after planning to travel to Syria.
    April 2, two women were arrested in Queens, New York.
    April 3, a Philadelphia woman was arrested before she could 
travel to Syria.
    April 8, this one hits a little bit closer to home because 
this is a gentleman from Madison, Joshua Ray Van Haften, was 
arrested in Chicago O'Hare Airport after his flight landed from 
Turkey.
    April 10, John T. Booker was arrested in Topeka after it 
was discovered he was preparing a car bomb for use against 
nearby Fort Riley Army post.
    April 16, another indictment.
    April 19, six men arrested on terrorism charges.
    May 3, the Texas terrorist attempt.
    We have a chart\1\ that I think is also somewhat 
surprising. So, again, the point of that timeline is these 
arrests, the revelations of these things are growing, and they 
are increasing in frequency.
---------------------------------------------------------------------------
    \1\ The chart referenced by Senator Johnson appears in the Appendix 
on page 100.
---------------------------------------------------------------------------
    Another I thought relatively shocking as I was being 
briefed by my staff, I was asking, ``Is this true?'', that the 
number of terrorist attacks in 2012 around the world was 6,771, 
and in 2013, 9,700. And one of my staff members went, ``Wow,'' 
which was exactly my reaction. In 2012, 11,000 individuals 
killed in terrorist attacks. It grew by 61 percent to almost 
18,000 in 2013.
    Now, in this chart we have also broken that out between 
terrorist attacks in Afghanistan, Syria, Iraq, and Pakistan. I 
guess I would consider those war zones. But that still leaves 
almost 3,000 terrorist attacks in 2012 outside of those war 
zones; almost 4,000 in 2013, an increase of about 33.8 percent.
    So the point of this hearing is to show that the danger is 
real. In many respects, the threat is growing, and we are going 
to have testimony here that there have actually been some 
setbacks for ISIS. They are maybe not as strong as they purport 
to be. But they are using social media to show that they are 
actually stronger than they are to inspire the kind of action--
and they do not need a whole lot of territory. They do not need 
too many computers. They do not need too many people spewing 
that hate and providing that kind of inspiration.
    So this is a real threat. I really want to thank and 
welcome the witnesses for your thoughtful testimony and coming 
here. With that, I will turn it over to our Ranking Member for 
his opening comments.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Thank you, Mr. Chairman.
    To each of you, welcome. This is an excellent panel, and we 
look forward to hearing from you and having a chance to ask 
questions of you this morning.
    As this Committee has discussed at a number of hearings 
over the years, the threats that our country faces--and the 
Chairman has just given us sort of a quick look at what is 
going on this year, but the nature of the threat has evolved 
significantly since September 11, 2001, when I was a new Member 
of this Committee.
    After 9/11, the most acute terrorist threats came from 
Osama bin Laden's al-Qaeda, which had orchestrated, as we know, 
large, complex attacks from remote caves in Afghanistan. Today, 
Bin Laden is dead. The core of al-Qaeda as we knew it has been 
largely dismantled.
    Unfortunately, al-Qaeda affiliates in Yemen, Africa, and 
Syria have filled the void. At the same time, new terror groups 
like ISIS present an immediate and different kind of threat to 
the United States and others both here and abroad.
    While the threat of major aviation attacks still remains a 
top concern for American counterterrorism officials, the 
tactics employed by these groups who are targeting us have 
broadened and are not as focused on this particular type of 
attack method.
    Groups like ISIS, Al-Shabaab, and al-Qaeda in the Arabian 
Peninsula have used social media and online propaganda to 
spread their call to extremists here in America and around the 
world to carry out their own attacks against us.
    Moreover, ISIS has seemingly perfected the ability to use 
social media to lure Western recruits to Syria for training. 
These new tactics mean that we can no longer rely solely on our 
ability to use military force to eliminate a terrorist threat. 
We must, in partnership with our allies abroad, start examining 
more closely the root causes of why Westerners join the ranks 
and act in the name of ISIS or al-Qaeda. We must continue to 
evolve our own counterterrorism tactics to address these root 
causes.
    Today we will begin to examine the narratives put forward 
by these terrorist groups over social media and also how those 
narratives are being used to influence vulnerable individuals 
here and in other Western countries. And we will look for 
common-sense solutions that our government, along with other 
governments with whom we are allied, can employ to counter 
these groups' narratives and to eliminate this tool from the 
terrorists' toolbox.
    With that, I look forward to a good conversation, and thank 
you again for joining us.
    Chairman Johnson. Thank you, Senator Carper.
    It is the tradition of this Committee to swear in 
witnesses, so if you would all stand and raise your right hand. 
Do you swear that the testimony you will give before this 
Committee will be the truth, the whole truth, and nothing but 
the truth, so help you, God?
    Mr. Bergen. I do.
    Mr. Berger. I do.
    Mr. Shaikh. I do.
    Mr. Gartenstein-Ross. I do.
    Chairman Johnson. Thank you. Please be seated.
    Our first witness is Peter Bergen. Mr. Bergen is the 
Director of the National Security Studies Program at the New 
America Foundation, Cable News Network (CNN's) national 
security analyst, and the author of ``Manhunt: The Ten-Year 
Search for Bin Laden--from 9/11 to Abbottabad,'' and ``The 
Longest War: The Enduring Conflict between America and al-
Qaeda.''
    Mr. Bergen.

TESTIMONY OF PETER BERGEN,\1\ DIRECTOR, INTERNATIONAL SECURITY 
PROGRAM, NEW AMERICA, AND PROFESSOR OF PRACTICE, ARIZONA STATE 
                           UNIVERSITY

    Mr. Bergen. Thank you, Senator Johnson, Senator Carper, and 
other Members of the Committee and the excellent staff that put 
this hearing together. My task today is to kind of try and 
outline the threat from Americans inspired by the Syrian 
conflict, which is the newest wave and cohort of domestic 
jihadism in the United States. And we at the New America 
Foundation, where I work, have identified 62 individuals from 
news reports or public records who have tried to join ISIS, 
have joined ISIS, or Nusra, the al-Qaeda affiliated, or 
supported others doing so, and here are the sort of big 
takeaways:
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Bergen appears in the Appendix on 
page 45.
---------------------------------------------------------------------------
    They come from across the United States. We found cases in 
19 States. As you know, the Federal Bureau of Investigations 
(FBI) Director James Comey has said there are ongoing 
investigations in 50 States. Some of these are obviously not 
public yet.
    They do not fit any ethnic profile. They are whites or 
African Americans; they are Arab Americans; they are Pakistani 
Americans; they are Bosnian Americans. And this, of course, 
produces problems for law enforcement in the sense that, unlike 
in the case of Al-Shabaab, which attracted overwhelmingly 
Somali Americans, mostly from Minnesota--where Senator Johnson 
went to university, I believe--that was a very focused group 
who were going. This is across the United States.
    We also found an unprecedented number of American females. 
Obviously these are a group of highly misogynistic individuals 
whose goal in life is to preclude women from having any role 
outside the home, and yet we found about a fifth of the 62 are 
females. A number of them are teenagers, and this is really a 
very new phenomenon.
    We also found that this is a relatively young group. The 
average age is 25, but there are teenagers, including teenage 
girls as young as 15.
    The only profile that this group really share is that 53 of 
the 62 individuals were very active on social media, 
downloading and sharing jihadist propaganda, and in some cases, 
as Elton Simpson was doing, directly communicating with members 
of ISIS in Syria.
    This is a new development in the way jihadist terrorists 
are recruiting in the United States. The kind of conventional 
view or perhaps the cartoonish view is an al-Qaeda recruiter 
comes here and recruits somebody and creates a cell. In fact, 
that is very rare. That did happen in Lackawanna. You may 
remember the Lackawanna Six case where there was an al-Qaeda 
recruiter who recruited six Yemeni Americans from Buffalo, New 
York, to go to a training camp in Afghanistan.
    We also saw that in Minnesota in 2007 when veterans of the 
Somali war went to Minneapolis to recruit Americans physically 
and bring them to Somalia. But we are no longer seeing that 
model at all. In fact, of the 62 individuals, we found that 
none of them were physically recruited by a militant operative, 
radical cleric, returning foreign fighter, or while radicalized 
while in prison. Instead, they self-recruited online or were 
sometimes in touch via Twitter with members of ISIS in Syria.
    Why would Americans abandon what is, after all, usually a 
very comfortable life? A lot of these come from comfortable 
backgrounds and are intelligent individuals. Why would they be 
attracted to ISIS? And I think there are sort of perhaps three 
reasons:
    First of all, of course, the terrible nature of Assad's 
brutal war against his own people is an attraction.
    Second, the claim that ISIS has created the caliphate, 
which I think is a powerful attraction for idealistic 
fundamentalist Muslims.
    Third, ISIS is presenting itself as the vanguard of the 
sort of Muslim army that is signaling the end of times and that 
is basically the vanguard of a group that will usher in the 
perfect true Islam when the Mahdi, the savior of Islam, 
returns.
    Now, I this morning I just saw that a very large number of 
Americans, something like 4 in 10, believe that we are in the 
end times, so this is not such an uncommon view that we are in 
the end times. So ISIS is presenting itself as ushering in the 
end times, which is another powerful kind of attraction.
    It also presents itself as a real State with social 
services, and that claim is not completely false, although it 
is certainly probably less true than they present it. And for 
some of the Western recruits, this is a heroic and glamorous 
thing. We have seen people tweet on ISIS--we have seen ISIS 
fighters say that it is like playing ``Call of Duty but in 3-
D,'' and so there is a heroic, exciting aspect to this that is 
attracting people.
    And, finally, what is the true level of threat? I would say 
the true level of threat in the West is not as much--something 
like 80 percent of Americans believe that ISIS is a serious or 
fairly serious threat to the United States. Well, it is clearly 
a big threat to American interests in the Middle East, 
potentially, but so far only one Syrian foreign fighter has 
carried out a successful attack in the West, which was the 
Frenchman who attacked the Jewish Museum in Brussels on May 24, 
2014, killing four people.
    That, of course, does not mean that the threat does not 
exist. It is worrisome, but not existential. And related to 
that point, of the 19 individuals we found who went to Syria, 8 
of them were killed over there. So Syria is proving as much of 
a graveyard as a launchpad for attacks.
    It is a very dangerous war, as you know. In fact, about 
half of the men who have gone over there have been killed and a 
larger sample of about 600 foreign fighters that we have 
examined, and about 5 percent of the females, so even for the 
women it is very dangerous.
    So if the returning foreign fighters are not the issue, 
what is the issue? And the issue is really what we saw on 
Sunday, which is people inspired by ISIS taking up weapons, 
obviously it is easy to acquire weapons in this country and 
doing something with them. And, luckily, Sunday's attack did 
not mature in the way that the attackers wanted it to. But I 
think that is a harbinger of what we will see in the future. So 
the real issue is not Syrian foreign fighters coming back to 
the United States. Law enforcement has done a very good job of 
tracking these folks. If they come back, there is only one case 
where law enforcement did not recognize that a particular 
person had gone to Syria, which is the Floridian, Moner Abu 
Salha. But the returnee problem is really, I think, much less 
of an issue than the homegrown ISIS-inspired that we saw on 
Sunday, and there is very little as a practical matter that we 
can prevent lone wolves who are truly lone wolves from doing 
these kinds of attacks.
    The good news is there is a natural ceiling to what a lone 
wolf can do. For instance, in Boston, the two Tsarnaev brothers 
were lone wolves. They killed four people. Those were 
individually tragedies, and it was a terrible day for the 
United States and Boston. But it was not a national catastrophe 
like 9/11 was. So we have to frame the threat effectively, 
which is it is worrisome but not existential and nothing on the 
scale of 9/11.
    Chairman Johnson. Thank you, Mr. Bergen.
    Our next witness is J.M. Berger. Mr. Berger is a non-
resident fellow in the Project on U.S. Relations with the 
Islamic World at the Brookings Institution and the author of 
``Jihad Joe: Americans Who Go to War in the Name of Islam'' and 
``ISIS: The State of Terror.''
    Mr. Berger.

 TESTIMONY OF J.M. BERGER,\1\ NON-RESIDENT FELLOW, PROJECT ON 
     U.S. RELATIONS WITH THE ISLAMIC WORLD, THE BROOKINGS 
                          INSTITUTION

    Mr. Berger. Thank you for having me. I think that I would 
like to start by talking about the lone wolf threat, because 
that is obviously on everyone's minds after the events of this 
weekend.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Berger appears in the Appendix on 
page 65.
---------------------------------------------------------------------------
    ISIS in many ways appears to be the first jihadist group to 
really kind of crack the lone wolf formula. The idea of 
leaderless resistance and individual attacks goes back to the 
1980s, originated in the American white supremacist movement, 
and people have been trying to make it work ever since. And the 
problem with lone wolves is that it is too easy to stay at 
home, generally. People are not going to get adequately 
motivated to carry out an attack without having social 
reinforcement, and that defeats the purpose of being a lone 
wolf, is to escape detention by not talking to anyone.
    ISIS has mixed up this formula, and there are a couple of 
reasons for this. The first thing that they have done that is 
different from what al-Qaeda did is they have become the 
populist movement. So they have a very low threshold for entry, 
and they are pretty undiscriminating about who they include in 
their group relative to al-Qaeda. It was very difficult to join 
al-Qaeda. al-Qaeda was a vanguard and an elitist movement. So 
that affords them access to more people.
    Second, their propaganda is extremely violent, and it is 
also very focused on presenting the group as dynamic and 
action-oriented relative--again, when you look at a comparison 
to al-Qaeda, al-Qaeda's propaganda, in recent years especially, 
tends more toward discourse: ``We are trying to convince people 
that we have the right idea, that reasonable people would agree 
with us that this is the correct thing to do.'' And ISIS does 
not care about that so much, and they are willing to just get 
people agitated and cut them loose.
    The third element of change is that ISIS has changed sort 
of the fundamental underlying assumption that we see in the 
jihadist argument. al-Qaeda proceeded from an assumption of 
weakness. Its argument was based on the proposition that 
Muslims are weak and that they were unable to stand up to 
apostate regimes in the region, and the reason that they could 
not stand up to them was because the West was behind them. So 
the idea behind al-Qaeda and the idea behind using terrorism as 
a tactic was that, ``This is the tool of the weak. We have to 
degrade popular support in the United States for apostate 
regimes in the Middle East, and then the United States will 
withdraw its support, and then we will be able to fight these 
guys directly.''
    ISIS has skipped ahead to fighting directly. Their 
propaganda emphasizes this. They are taking the fight to the 
local regimes, and they are attacking the United States in a 
secondary way. Their message is that, ``We are winners, and you 
should join us because we are strong.''
    All of this is part of a very complex set of problems. We 
are in a period of very broad social change. People have been 
talking about social media for a number of years and often in 
very effusive terms about how it is changing the world, and 
this is the first manifestation of how that really is going to 
work. What we are seeing is that social media allows people to 
self-select the beliefs and information that they receive, so 
if you have an interest in jihadism, you can find other people 
who are interested in that very easily, very quickly, and you 
can establish relationships with them. This is very different 
from, say, the 1950s. If you were a radical jihadist in the 
1950s living in Peoria, you might go your whole life without 
meeting anybody who shared your views. Today it takes you 10 
minutes to start talking to people who share your views. And 
that is a key part of what ISIS does in its recommendation 
process, it provides a social context. It is reinforcement, and 
it is personal validation of your beliefs. If you are going to 
act out as a lone wolf, they are offering you a degree of fame 
that you would not be able to achieve as a mass shooter, for 
instance. And it is very reciprocal.
    There is a sense of remote intimacy on social media that 
can be hard to appreciate if you do not use it a lot. When you 
talk to somebody on a social media platform and you talk to 
them every day, you feel like you know them. You feel like they 
are somebody who is in your life. And so somebody tweeting from 
Syria who is a member of ISIS can develop a very emotionally 
powerful relationship with somebody who is sitting in the 
United States. And that is part of the reason that we have seen 
people are more willing to mobilize in the name of ISIS than 
they were in the name of al-Qaeda.
    ISIS' radicalization and recruitment practices take place 
over a spectrum. There is no one thing that they do to try and 
recruit Westerners or try and recruit locally. They attack this 
from every channel in every direction using a variety of styles 
and using a very large number of people, because ISIS is a 
large organization and can afford to have 2,000 people who 
tweet 150 times every day. It can afford to have a ratio of, 
two or three recruiters to every one potential recruit who 
might carry out a lone wolf attack. If there is an area in 
which we are trailing ISIS in this struggle, I think it is 
probably a question of resources. And, of course, the problem 
that we face with that is that nobody can really agree how to 
use those resources. Our efforts at countering violent 
extremism in a preventive way have a lot of problems that are 
inherent to them, and we also have a problem from a law 
enforcement perspective. If you are monitoring 60 or 100 
people, it takes 500 people to do that, to monitor these people 
even on a partial basis, let alone 24 hours a day. So if these 
guys jump in a car and drive to Texas, there is not a lot you 
can do to interdict that.
    I will save most of the rest of my thoughts for the Q&A. I 
did want to just talk about the prospect of an ISIS 
organizational terrorist attack. ISIS has money and manpower to 
spare. We have not seen that they have an intent to carry out a 
9/11-style attack, and there is reason to think they might not 
be as skilled or competent in such an attempt as al-Qaeda was 
because of the training cycles that they use. I think we should 
not assume that that is something that could not happen, 
though, that they could not make an attempt. And I think we are 
much better prepared to prevent something like that today.
    I do not think ISIS is an existential threat, but I do 
think that we have to have realistic expectations about what 
they might do so that, when something happens, we do not 
overreact in fear.
    Thank you.
    Chairman Johnson. Thank you, Mr. Berger.
    Our next witness is Mubin Shaikh. Mr. Shaikh is a former 
Muslim extremist and an expert on radicalization, terrorism, 
and countering violent extremism. He has consulted on the topic 
of ISIS with the U.S. State Department, U.S. National 
Counterterrorism Center (NCTC), U.S. Special Operations Command 
(SOCOM), Central Command, NATO, Interpol, and other agencies.
    First of all, Mr. Shaikh, I certainly appreciate and thank 
you for having a change of heart after 9/11 and for all the 
help and support you have given this government in terms of 
trying to counteract this and also trying to help other young 
people who might be inspired to not be inspired. But I am 
looking forward to your testimony. Mr. Shaikh.

  TESTIMONY OF MUBIN SHAIKH,\1\ AUTHOR, ``UNDERCOVER JIHADI''

    Mr. Shaikh. Thank you, sir. Shalom Alaichem, As-salamu 
alaykum, the greeting of Jesus Christ, peace be unto you.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Shaikh appears in the Appendix on 
page 71.
---------------------------------------------------------------------------
    To the esteemed Members of the Senate Committee, on 
September 11, 2001, I was driving to work when I first heard a 
plane had struck one of the two towers of the World Trade 
Center buildings. Immediately, I exclaimed aloud, 
``AllahuAkbar''--``God is Great.'' My celebratory moment was 
quickly muted when I asked myself: What if the very office 
building I was working in was similarly struck by a plane? I 
would have perished along with everyone else just as those 
innocent people perished on that day. For me and many others, 
September 11, 2001, was, for all intents and purposes, the 
beginning of the end of my commitment to the extremist mindset. 
Allow me to explain how this began for me.
    I was born and raised in Toronto, Canada, to Indian 
immigrants. As a child, I grew up attending a very conservative 
brand of ``Madressah''--a Quran school--an imported version of 
what you would find in India and Pakistan: rows of boys, 
separated from the girls, sitting at wooden benches, rocking 
back and forth, reciting the Quran in Arabic but not 
understanding a word of what was being read.
    Contrast that with my daily life of attending public 
school, which was the complete opposite of the rigid, 
fundamentalist manner of education of the Madressah. Here, I 
could actually talk to girls and have a normal, functional 
relationship with them. When I left the Quran school at age 12 
and moved into middle school and high school, I was not 
discriminated against, bullied, picked on, or anything of the 
like. I was actually one of the cool kids.
    But when I was 17, I had a house party while my parents 
were away, which my hyper-conservative uncle walked in on. 
Normal as it may be to the Western experience, my uncle and 
other family members were incensed that I would have brought 
non-Muslim friends to my home, and they spent the next few days 
berating me over what I had done. Due to the sustained guilt 
trip I received, the only way I thought I could make amends 
with my family was to ``get religious.'' Hence, the born-again 
type seeking to right the wrongs of their past.
    I would then travel to India and Pakistan and, in the 
latter, ended up in a place called Quetta, which, unbeknownst 
to me at the time, was the center of the Taliban Shura and of 
the group known as al-Qaeda. As I walked around the area, I 
chanced upon 10 heavily armed men dressed in black turbans, 
flowing robes, and sandals. One of them said to me that, ``If 
you truly wish to bring about political change, it can only be 
done by using this,'' and he held aloft his AK47. I was 
completely enamored by them as jihadi heroes--a consistent 
theme in Jihadist literature and media today.
    In the years following, I absorbed myself in proclaiming 
the jihad was the only way to change things. And when Osama bin 
Laden gave his fatwa in 1998, I was on board.
    Then 9/11 happened and I thought: Wait a second. I get 
attacking combatants, but this? Office buildings in which 
regular people worked--Muslims included? I realized I needed to 
study the religion of Islam properly to make sense of what I 
had just witnessed. I sold my belongings and moved to Syria in 
early 2002 when there was still some semblance of normality in 
the country. I attended the class of a Syrian Islamic scholar 
who challenged me on my views regarding jihad and subsequently, 
spent a year and a half with him studying the verses of the 
Quran and the traditions of the Prophet--Peace Be Upon Him--
that the jihadists used to justify their hate and destruction. 
I came to relinquish my views completely and returned to Canada 
in 2004 with a new-found appreciation for rights for Muslims in 
the West.
    That year, some individuals had been arrested in the United 
Kingdom with the London fertilizer bomb plot. One of those 
individuals was none other than my classmate from the Madressah 
that I attended as a child. I thought this to be a mistake and 
contacted the Canadian Security Intelligence Service to give a 
character reference for the family, but it was too late for 
him. As for me, I was recruited by the service as an undercover 
operative because I felt this was my religious duty.
    I can say that I conducted several infiltration operations 
both online and on the ground involving religious extremists. 
One of those cases moved on to become a criminal investigation, 
and I traversed from Intelligence Service to the Mounted 
Police, Integrated National Security Enforcement Team, in what 
came to be known as the Toronto 18 terrorism prosecution. I 
gave fact witness testimony in five hearings over 4 years at 
the Superior Court where 11 individuals were eventually 
convicted.
    I have since worked with various mechanisms of the U.S. 
Government, as you noted the National Counter Terrorism Center, 
Homeland Security Office for Civil Rights and Civil Liberties, 
and the U.S. Department of State, Center for Strategic 
Counterterrorism Communications--three main outfits that are 
engaged in the study and practice of countering violent 
extremism programming.
    In addition, I have spent the past few years on Twitter 
having watched the very start of the foreign fighter phenomenon 
and directly observed recruitment and propaganda by ISIS types 
online, and I reference Appendix A here that the members should 
have. I have directly engaged with many of them, male and 
female--Appendix B--as well as some of their victims that they 
have tried to recruit. My approach is to show how wrong they 
are and to criticize and delegitimize them from the very 
Islamic sources that they misquote and mutilate. Thusly, the 
correct term to describe these Terrorists in Islamic Costume 
(TICs) is ``Khawarij.'' It is a technical Islamic term.
    I have personally intervened in cases of an America girl 
that these predators were trying to lure away and put a stop to 
it by engaging her online as someone who can show her the real 
interpretation of Islam. Due to this, I believe I have a good 
understanding of what is happening in terms of recruitment and 
what needs to be done in terms of countermessaging, both from 
the civic service and non-governmental organization (NGO) side 
as well as the military side of psychological operations, which 
I conveyed at a recent SOCOM conference held in New York in 
which the Commanding General himself was present.
    Finally, there remains a massive gap in all of the areas 
that I have mentioned and that a sustainable, meaningful, and 
effective countermessaging approach needs to be created. I 
submit to you that it is not as hard as some may suggest, that 
we already have the talent but just need the direction and 
guidance in order to get it going.
    Just three quick points on--there was some question on 
terrorist recruitment in prisons.
    No. 1, terrorist recruitment in prisons is happening all 
over the world, not just in the United States. But as for the 
United States, the numbers are actually very low.
    No. 2, in the Western context, much of this recruiting 
remains unseen to the untrained eye--and also due to its covert 
nature--and usually does not manifest openly in the prison 
institution but afterwards, when the individual has left the 
facility.
    And, No. 3, greater vetting of the types of imams that 
offer counseling is needed to ensure that pro-social messaging 
is delivered in the context of prison rehabilitation programs. 
By framing this under ``pro-social'' messaging, the State 
avoids having to declare which version of Islam they 
``approve'' of since we all approve of anything that promotes 
healthy, productive, and rehabilitative components of 
counseling.
    I thank the Committee and my colleagues here with me and 
hope this is the start of a solid discussion in dealing with 
the challenges and opportunities now before us. Thank you and 
God bless.
    Chairman Johnson. Thank you, Mr. Shaikh.
    Our next witness is Daveed Gartenstein-Ross. Am I 
pronouncing that even close?
    Mr. Gartenstein-Ross. That is correct.
    Chairman Johnson. Oh, wow. That is very unusual, by the 
way. Mr. Gartenstein-Ross is a senior fellow at the Foundation 
for Defense of democracies, an adjunct assistant professor in 
Georgetown University's Security Studies Program, a lecturer at 
Catholic University of America, and author of the report, 
``Homegrown Terrorists in the United States and the United 
Kingdom.''
    Mr. Gartenstein-Ross.

    TESTIMONY OF DAVEED GARTENSTEIN-ROSS,\1\ SENIOR FELLOW, 
             FOUNDATION FOR DEFENSE OF DEMOCRACIES

    Mr. Gartenstein-Ross. Senator Johnson, Senator Carper, 
distinguished Members, it is an honor to appear before you 
today. What I am going to focus on in this testimony is the 
question of: What has the United States done? What can the 
United States role be in countering this violent messaging?
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Gartenstein-Ross appears in the 
Appendix on page 89.
---------------------------------------------------------------------------
    With respect to ISIS, which I think right now is rightly at 
the center of our concerns, we have seen the most dramatic 
brand rise of any jihadist organization, in large part because 
of the reasons that J.M. Berger lays out, that they are 
excellent at messaging. Technically they go far beyond what al-
Qaeda and others have done, and they take advantage of Web 2.0, 
the interactivity of the Internet, which suddenly makes someone 
who is alone a part of a group. They also are vulnerable, 
though it is not inevitable, to the most dramatic brand 
reversal of any jihadist organization we have seen.
    You might have noticed that at times IS' messaging and the 
United States' countermessaging have been exactly the same. 
Often the United States will show the Islamic State's 
brutality, people that they are killing, people that they have 
tortured; and the Islamic State proudly proclaims the same 
thing. The reason why is what they have fundamentally is a 
winner's messaging.
    To them, it is not bad to show that they are brutal because 
the brutality shows that they are stronger than other groups, 
that they can impose their will. They are actually very 
recently--as the Islamic State has increasing pressure on it, 
particularly being concerned about the pressure being put on 
Mosul, a statement by a supporter named Abu Sulayman al-
Jahbadhi, which was very insightful, asked people in Islamic 
State-held cities not to show the brutality of the Islamic 
State's enemies, not to show, for example, bombing that killed 
civilians, not to show the impact of a siege upon the cities. 
His argument was that the Islamic State in its messaging will 
show the brutality of its foes, but that brutality is always 
connected to punishment. In other words, they want to show that 
they can deal with their problems. That is what a winner's 
messaging is. They emphasize their strength. They do not want 
to emphasize weakness.
    Now, the reason why we know that they are vulnerable to a 
brand reversal is because we have seen that before with the 
exact same organization. Back in 2005 to 2006, you had a very 
similar dynamic, not identical but very similar, with al-Qaeda 
in Iraq (AQI), which is, of course, ISIS' predecessor. al-Qaeda 
in Iraq was known for its brutality. It shocked people with 
videos where it beheaded its victims. And it was thought of as 
a very romantic organization. People wondered during this 
period if the emir of al-Qaeda in Iraq, Abu Musab al-Zarqawi, 
had surpassed Osama bin Laden as the leading figure of the 
jihadist world.
    But what happened then? We remember, of course, from Iraq 
in the 2007-09 period that they had overplayed their hand, 
particularly in Anbar Province, where right now ISIS is in the 
process of inflicting similar although greater brutality upon 
the population. You saw a grassroots uprising known as ``The 
Awakening'' or the ``Sahwa movement,'' combined with two other 
factors: a surge of U.S. troops in Iraq and also U.S. 
counterinsurgency tactics. This ended up defeating al-Qaeda in 
Iraq at the time. Their brand went from being sky high to 
suddenly the entire al-Qaeda organization wondering what they 
could do to undo the brand damage that had been done by their 
losses in Iraq. This was a brand reversal because what had once 
been a symbol of strength, their brutality, was reversed into a 
symbol of having overplayed their hand and turned the 
population against them.
    Now, with respect to ISIS, it is experiencing a trajectory 
of losses. It has been in somewhat of a decline phase since 
October of last year. It has lost territory rather than gaining 
it, and as a result, ISIS has started to emphasize other ways 
in which they are strong. One particular way has been their 
expansion into Africa, which very clearly is at the center of 
their current strategy.
    At times, they have exaggerated their gains, and they have 
gotten the media to report on this. I think the best example is 
their claim to control the city of Derna in northern Libya. 
This is not true, and it has never been true, but they have 
gotten the media to report it through multiple outlets, 
including the British Broadcasting Corporation (BBC) and CNN. 
The reason why is they were able to show a photo of an Islamic 
State flag on a government building in Derna, and they were 
able to also show a video of a parade through Derna with 
Islamic State supporters.
    Now, this is a city that is controlled by multiple 
factions, so the fact that they could have a show of force or a 
flag on a government building is not determinative. It does not 
mean that they control the city. But this was reported, and you 
have this cycle in which the Islamic State pushes out its 
message; its message goes to the media, and it goes to it 
supporters. And, unfortunately, sometimes the media pushes the 
same message to the supporters. So rather than cognitive 
dissonance and them having to convince themselves that the 
Islamic State's message is true and the objective media is 
wrong, instead both are reporting on these exaggerations. And 
ISIS is able to do this in areas where social media's 
penetration is low, so it seems that the facts they are putting 
forward are the only relevant facts.
    Now, what can the United States do? How can the United 
States reverse this messaging of strength?
    One thing that we have to fundamentally be able to do is to 
compete at the speed of social media. You are all in 
government. You understand that our bureaucratic processes 
would often be hard pressed to compete at the speed of the 
Gutenberg Bible, let alone at the speed of social media. We 
need to de-bureaucratize the process of competing with them.
    I think in this particular case, dealing with the Islamic 
State is very different than dealing with jihadist messaging as 
a whole because, as I have outlined, it has a particular 
vulnerability that other jihadist groups do not necessarily 
have.
    But in this case, what would be very effective is a small 
cell that is able to operate, that fuses intelligence analysts, 
those who are able to see what is the Islamic State's 
messaging, what are they hoping to gain, and where does it not 
map with reality, with strategic communications professionals. 
The U.S. Government is not always the best voice. Often the 
best voice may be to push information out to media--fact 
sheets, selectively declassifying information, and giving them 
information where they can serve as the objective voice if you 
get them reliable information.
    Right now, I know from interactions with media that this is 
often not being done. When I point to an exaggeration of the 
Islamic State's, often journalists, whether print or broadcast, 
are hearing it from me for the first time, as opposed to 
hearing it from the U.S. Government. Given that media and the 
battle of perception is so central to what the Islamic State is 
trying to do, the U.S. Government has to be more quick to react 
and to understand the strength of its messaging, and to be able 
to respond at the same kind of speed, focusing in on the key 
message of the Islamic State at the same speed at which they 
can push out their own message.
    Overall, defeating the Islamic State's messaging does not 
defeat jihadism, but this is an important point for a variety 
of reasons. And, furthermore, I can say, to end on an 
optimistic note, that I do see some promising signs within 
government that we are starting to shift toward a paradigm of 
trying to defuse the perception of the Islamic State's 
strength, but it is worth following up to make sure that we are 
taking the appropriate steps, and there the Senate I think can 
play a major role.
    Thank you all.
    Chairman Johnson. Thank you, Mr. Gartenstein-Ross. We may 
not have that rapid communication response capability in the 
Federal Government, but I can tell you, I think most elected 
officials who have gone through a campaign, particularly 
Presidential campaigns, have that within the political world, 
that rapid response. Maybe that would be a good little piece of 
legislation we could propose a rapid response communication 
team that we can pull from campaigns. Trust me, we have those 
capable individuals within our knowledge base.
    I would like to talk about the online process. I would like 
to ask a question. ISIS is using social media to connect and to 
talk--and, by the way, I would like to enter into the record, 
without objection, the Web pages provided by Mr. Shaikh.\1\ If 
you have not read them, read them. It is pretty powerful in 
terms of the examples of how ISIS is using social media.
---------------------------------------------------------------------------
    \1\ The information submitted by Mr. Shaikh appears in the Appendix 
on page 85.
---------------------------------------------------------------------------
    Chairman Johnson. But what is the next step after that? Mr. 
Berger, who is an expert on this; so they recruit, they talk, 
they talk online, and then what happens?
    Mr. Berger. So there is a series of stages that you go 
through with this. Typically somebody is exposed to their 
propaganda that is being broadcast out, and they take an 
interest in this. And this is not just ISIS. This is how social 
media works generally. You find a subject, you take an interest 
in it, and when you start following it online, you see that 
there are other people talking about the same subject, and you 
start conversing with them.
    So what we will typically see is that there will be a 
period where somebody is consuming this stuff in the public, 
and if somebody is seriously interested and willing to take a 
step further or consider a step further, they will take it to a 
private format. So that can be a direct message on Twitter, 
which cannot be read in the open source, or on Facebook. More 
often, they will go through an encrypted app, such as WhatsApp 
or Kik, which it is basically text messaging with an element of 
encryption.
    Chairman Johnson. So, again, our authorities can follow the 
open-source social media, but the minute those individuals who 
are really serious about it go offline, we go dark. We lose our 
capability to follow, and we really have no idea. Isn't that 
basically correct?
    Mr. Berger. Well, you can approach it with subpoena and 
other authorities, so, I mean, it is possible to get there.
    Chairman Johnson. If we can decrypt.
    Mr. Berger. Yes.
    Chairman Johnson. I mean, that is part of the problem.
    Mr. Berger. Yes.
    Chairman Johnson. And, obviously, Silicon Valley is 
resistant to allowing us to decrypt, and even if they were to 
allow it, there would be other sites offshore that will also 
encrypt. So we are losing our capability of being able to 
follow this, correct?
    Mr. Berger. Yes. I would also just add, though, that the 
ability of government to follow it on open social media is 
often murky.
    Chairman Johnson. Very limited.
    Mr. Berger. People in different agencies have different 
understandings of what they are legally allowed to do when it 
comes to monitoring communications of Americans, even on open 
social media platforms, and that is somewhere where a 
governmentwide initiative to clarify authorities would be very 
helpful.
    Chairman Johnson. It was not in your testimony, but in my 
prep, apparently you have a publication where your best guess 
was there were 46,000--I think these were your words--``overt 
ISIS supporter accounts'' on Twitter, maybe a high number of 
90,000. Can you describe what you are talking about by an 
``overt ISIS supporter account''?
    Mr. Berger. Sure. That figure was from late last year, so 
it is much smaller now, significantly smaller.
    Chairman Johnson. Now, why is that?
    Mr. Berger. Because Twitter has started aggressively 
suspending accounts. So an overt ISIS supporter, for the 
criteria we used for the paper, was we had a series of steps. 
So, first, if you are just tweeting ISIS propaganda and ``I 
love ISIS'' all day long, then you are an ISIS supporter. If 
you are not doing that in an obvious way, then we looked at who 
you followed and then who followed you and sort of analyzed the 
network to try and see if there was a clear case. So it was a 
very conservative approach to coding somebody as a supporter. 
Fundamentally, it is somebody who is not actively trying to 
conceal their interest in ISIS.
    Chairman Johnson. So, Mr. Shaikh, as somebody who is trying 
to prevent young girls, for example, or other people that are 
making those connections, where are they going now then? Is 
there an alternative?
    Mr. Shaikh. Well, they will remain in the orbit of their 
particular networks. What I try to do is engage them openly and 
directly online. I have seen others try to do that as well. In 
fact, you are seeing people even on the al-Qaeda side, 
strangely, arguing against ISIS types, making theological 
arguments, which is kind of strange, considering they are al-
Qaeda.
    But they will continue to orbit their networks. Those that 
do go off into the WhatsApp and Kik, I do not follow them 
offline into that, but that is what they do.
    Chairman Johnson. There are officials of the U.S. 
Government going into Muslim communities, talking, and one of 
the reports we got back--and I was very surprised to hear this 
because of the revelations of Edward Snowden, there seems to be 
a perception in America that the Federal Government knows all 
and we have perfect knowledge and we know exactly who is online 
and we know exactly who is on these sites and is becoming 
radicalized. And the members of those communities were actually 
very surprised that we had no idea.
    Can you kind of speak to that, Mr. Shaikh, in terms of, the 
necessity of members of different communities to be policing 
themselves and reporting that? From the Department of Homeland 
Security (DHS), it is, ``If you see something, say something.''
    Mr. Shaikh. I think Hollywood has kind of done this as 
well, that is, given the idea that the intelligence services 
are omnipresent and all-knowing. Maybe in some cases, that is a 
good thing that people think that we can see everything. Of 
course, on the other hand, this is something that the 
government agencies are trying to achieve, get into the 
communities and give them something by which they can actually 
convince their own communities outside of law enforcement, and, 
look, these are things that you need to watch for. These are 
your kids being lured over by these individuals. These are your 
parents that are going to end up in front of, TV cameras as 
they attend court or whatever it is. These are your mosques 
that are going to see press and retaliatory attacks and things 
like that.
    So it is an ongoing challenge with the communities. There 
is a level of mistrust, and there are professional naysayers, 
community organizations that are trying to obstruct and are 
very obstructionist in the way they approach this. But this is 
an issue that is continuing, continues to play out.
    Chairman Johnson. My final question really springs from a 
very interesting article written by Graeme Wood in the Atlantic 
and really I think amplified by your testimony, the 
significance of the territory held and the caliphate 
established and how that is driving the process, driving the 
narrative. Perhaps you would like to speak to that, Mr. Bergen.
    Mr. Bergen. I think the short answer is that is completely 
true. Without the territory, the claim to be the caliphate, if 
you do not control a population--they control about 8 to 9 
million people. That is the population of Switzerland. If you 
do not control territory--it is the size of the United Kingdom 
roughly--your claim to be the caliphate disappears, which has, 
an important strategic implication, which is we need to keep 
chipping away or demolishing this caliphate.
    Chairman Johnson. But, again, what does that inspire in the 
minds and hearts of followers? What is the call? What is 
required once the caliphate is established?
    Mr. Bergen. Well, I think the call--and this is where it 
gets complicated, and it goes a little bit to what Mubin was 
talking about. For some highly observant, ultra-fundamentalist 
Muslims, they may feel, ``Hey, I want to go and just be 
supportive. That does not necessarily mean I want to go and 
become a fighter for ISIS.''
    And so I think as a matter for the law enforcement 
community and the Congress to think about, if somebody is not 
actually indicted for a potential act of terrorism but merely 
for trying to go to Syria, we should be thinking about off 
ramps that are not 15 years in prison, because right now the 
problem that Muslim families have is if they see a son or 
daughter radicalizing and then they say, ``Well, should we call 
the FBI?'' well, then, that son or daughter may get 15 years in 
prison.
    So I think we should think about--oh, and in Minneapolis, 
as you know, sir, there is a case where something other than a 
very long term prison term for a 19-year-old young man is now 
in process, and I think it is a model we should be thinking 
about going forward.
    Chairman Johnson. Before I turn it over to the Ranking 
Member, anybody else want to respond to that?
    Mr. Gartenstein-Ross. I think that this also speaks to what 
Mubin had mentioned, which is the debate between al-Qaeda and 
ISIS supporters online. The reason why al-Qaeda had never 
declared a caliphate is because they did not think that they 
could create something that would have staying power. So if the 
caliphate gets chipped away geographically, you will see many 
more people within jihadist circles attacking the decision to 
declare the caliphate in the first place, which is one reason 
why, as I said, they are susceptible to a brand reversal, 
because jihadists themselves would turn on them if they start 
to lose the territorial advantage.
    As to your question about what is required, for someone who 
believes that the caliphate has been legitimately declared, if 
they do not accept the caliphate's authority, then they die in 
a state of sin. This also gets to one of the intra-jihadist 
debates as to whether it is a legitimate caliphate. But for 
people who support it, as was outlined, it can be anything from 
going over there and living in the caliphate--and that 
certainly is a pull--to, for those who are not able to do so or 
those who are more well situated to carry out attacks, doing so 
on the homefront. That is also one reason they have been so 
successful compared to other organizations in having a prompt 
to action. They have a lot of things going for them right now 
that make them acting essentially from a position of strength, 
and within their very small target audience, from a position of 
religious legitimacy.
    Chairman Johnson. So one of the goals of U.S. policy should 
be to deny them that territory, deny them that caliphate.
    Mr. Gartenstein-Ross. I think so, yes, and also to make 
sure that those losses are being broadcast, because it has a 
magnifying effect, and being broadcast from multiple actors, 
including civil society activists. Essentially as we improve 
our communications capabilities, one thing it does is allows 
those who are opposed to ISIS to have a better vehicle to 
attack ISIS with.
    Chairman Johnson. Thank you. I apologize to the Committee 
Members for going over time. I thought that was important. 
Senator Carper.
    Senator Carper. Again, thank you. Thank you all for your 
testimony and for your responses to our questions.
    Mr. Berger, I think you used the word ``murky'' in your 
comments to describe, I think, the authority with which our 
officials have to do certain actions. Go back and just mention 
this again. Let us revisit this for a moment.
    Mr. Berger. Well, fundamentally, I do not think there is a 
consensus in government that you can do large-scale monitoring 
of social media, open social media, of American citizens 
without a probable cause to investigate. So the role that we 
see in social media, in a lot of cases we have seen some plots 
and people intending to travel who were detected on social 
media. More often what we see is social media provides an 
evidence trail to go after an arrest after you have identified 
a suspect.
    Fundamentally, for instance, there are questions about how 
we collect and archive this data and who we collect and archive 
on it. Do we need to have a reason to go after it, or can we 
sweep up thousands and thousands of accounts?
    In the case of Garland, for instance, if we had been 
sweeping up those accounts, we would have a much clearer idea 
of the track of radicalization for the suspect on open source. 
You can go after the stuff with subpoenas. You can try and 
retrieve the data in various ways. But when Twitter suspends an 
account and when other platforms suspend an account, that 
information is no longer available. So this user had previous 
accounts, seven previous accounts, and we do not have that 
available to us in the open source to talk about that. And I do 
not know if law enforcement has that available, if they have 
been archiving it, if they have access to it via subpoena. I am 
not entirely sure Twitter saves the data. I am pretty sure they 
do, but I am not entirely sure.
    So these are the kind of questions--I think the appetite in 
the country probably is not very friendly to the idea that the 
FBI should be vacuuming up thousands and thousands and 
thousands of social media accountable. So these are the kinds 
of things I think that are in play.
    And then when you go from agency to agency, there are 
different kinds of boundary issues that we have run into over 
the course of some years. I mean, several years ago, there were 
issues in terms of like military investigating Americans who 
were in al-Qaeda in Pakistan and Afghanistan, military 
intelligence sometimes had to take names out of documents 
because the privileges that we afford American citizens in 
different contexts are sometimes not totally clear how you 
reconcile that with a pragmatic approach.
    Senator Carper. OK. Thank you.
    A related question, and this would really be, I think, for 
Mr. Gartenstein-Ross and, again, for Mr. Berger. Is it more 
advantageous, do you think, for us and our government to work 
with companies to shut down social media accounts that promote 
ISIS or like-minded messaging or to keep those accounts open 
for intelligence purposes? Mr. Gartenstein-Ross.
    Mr. Gartenstein-Ross. Well, J.M. has actually done some 
very good work on the----
    Senator Carper. J.M. Berger.
    Mr. Gartenstein-Ross. Yes, J.M. here. J.M. Berger has done 
some very good work on showing the disruptive impact that it 
has. There is a very big debate amongst analysts as to whether 
you shut these accounts down because, on the one hand, you have 
their ability to radicalize people to action. On the other 
hand, you have the ability to gather information on them.
    I think increasingly that debate is actually becoming 
settled because we can see with ISIS the massive impact that 
these accounts have had. The amount of people who have been 
drawn to the Syria-Iraq theater is greater already than it was 
during the Afghan-Soviet war in terms of the number of foreign 
fighters who have come. Social media plays a very big part in 
that.
    So I think, in general, it is advantageous to shut these 
accounts down, and this is something that should absolutely be 
a company's decision. The U.S. Government has no authority to 
do that--with one exception, which is that if jihadists get 
frustrated with having their accounts suspended on Twitter, 
Facebook, et cetera, they may create their own website, their 
own version of Twitter or Facebook, at which point our 
superiority in terms of technological capabilities plays a 
role. That is the kind of site that we could shut down 
wholesale, I think, without any sort of free speech or 
constitutional problems.
    Senator Carper. Thank you.
    Mr. Berger, again, very briefly on this question. Then I 
have one more.
    Mr. Berger. I do think there is utility in shutting them 
down. The intelligence argument is important, but ultimately 
the goal of intelligence is to stop terrorists from doing 
whatever they want to us, and so, you take that into the 
context of an attack, obviously you get a lot of intelligence 
if the terrorist successfully carries out an attack. In the 
same way in a lower scale I think that, we should not give them 
carte blanche to do whatever they want because it allows us to 
make nice charts and spread sheets.
    Senator Carper. OK, thanks. And this would be a question 
for all of our panelists. I like to focus, as my colleague 
said, on root causes, not just on addressing symptoms but 
addressing the underlying root causes. What are the root causes 
or underlying causes that compel Americans to engage in 
violence in the name of jihad? And what common factors, if any, 
do these individuals share? Mr. Bergen.
    Mr. Bergen. That is a tough one. I have looked at hundreds 
of cases of Americans who have been drawn to jihadi activity 
and, there is no ethnic profile, there is no--some of these 
people are--on average, they tend to be slightly better 
educated than most Americans. They tend to not--but then, on 
the other hand, you have people from criminal backgrounds. It 
is very hard to make a one-size-fits-all description. In 
another era, in the 1970s, perhaps these people might have been 
drawn to the Weather Underground or the Black Panthers or some 
other revolutionary utopian movement, the promise to remake 
society through violence, and we have seen that throughout 
history.
    But there is no really good answer to that question. It is 
a form of the question of what draws people to crime. The 
answer is too complicated to say in a very quick and sound-bite 
kind of way.
    Senator Carper. All right. Thank you. Mr. Berger.
    Mr. Berger. I would agree with that. I think that what we 
see here, there are clusters of causality. So you can see, for 
instance, in the Al-Shabaab's recruiting in Minnesota, you can 
sort of quantify why that happened, why there were so many from 
Minnesota. You can look at towns, for instance, Derna, where an 
organization has a long history that, gives you some insight 
into why that group of people goes. But when you look to sort 
of generalize, it is very difficult. Who you know is probably 
the most important thing, and that is where the social media 
comes in. If you can know somebody in ISIS very easily online, 
then that presents a greater risk.
    Senator Carper. Thank you.
    Mubin Shaikh and then Mr. Gartenstein-Ross, and then I will 
yield my time. Thanks.
    Mr. Shaikh. Of course, I share the same caveats of the 
complexity, but I will give a sound-bite version. Without 
grievances, ideology does not resonate. And without ideology, 
grievances are not acted on. I think the intersect between 
ideology and grievances do play a significant role in this.
    Senator Carper. All right. Thank you.
    Mr. Gartenstein-Ross. I think Mubin articulated it very 
well, and let me focus on one thing related to this question, 
which is, What can the United States do?
    Senator Carper. That is always a good question.
    Mr. Gartenstein-Ross. We are in the world right now where 
ideas catch on much faster, whether they are good ideas or bad 
ideas. It is easier to achieve a critical mass, and that can 
play off of, as Mubin says, grievances and ideology that 
intersect together.
    The question is: What are we doing to ameliorate 
grievances? To some extent, that is hard. We live in a world 
that does not have perfect justice at all, and we live in a 
world of finite resources, and we live in a world of 
competition. But if you look at what companies are doing--that 
is, corporations in the United States--those who are prospering 
are increasingly transparent in terms of their decisionmaking, 
in terms of what they are doing. The companies that are much 
more legacy industry-type companies and floundering are less 
transparent, much more top heavy. In many ways, the U.S. 
Government looks like a legacy industry.
    I think one thing we need to be able to do--there are many 
representatives who are good at this--is be much more 
transparent in terms of the U.S.' decisionmaking. There are a 
lot of hard choices to make.
    J.M. Berger outlined before the hard decision in terms of 
monitoring Americans' use of social media. On the one hand, we 
understand that people who are on Twitter and radicalizing can 
pose a danger; but, on the other hand, when we think of the FBI 
sweeping up thousands and thousands of accounts and archiving 
them forever, that in many ways feels like ``1984'' by George 
Orwell.
    So thinking these through publicly, explaining decisions, 
explaining what we are doing I think can also help to defuse 
part of that grievance, because moving forward, we are in a 
world where grievances, whether real or imagined, can catch on 
very quickly, and the United States should think of what it can 
do in this evolving structure of communication to minimize the 
United States being a target.
    Senator Carper. Good. Thank you all.
    Chairman Johnson. Thank you, Senator Carper.
    By the way, I was handed a note, our vote that was 
scheduled at 10:30 has been moved to 2, so we will not have any 
interruptions. Senator Sasse.

               OPENING STATEMENT OF SENATOR SASSE

    Senator Sasse. Thank you, Mr. Chairman, and thank you to 
all of you for being here.
    After reading your testimony, my main line of questioning 
was going to be about how you create strategic brand damage to 
the Islamic State of Iraq and the Levant (ISIL) and to future 
jihadi groups. But before we go there, I would like to have a 
detour and follow, Dr. Gartenstein-Ross, your comments about 
the interplay between traditional and social media, and 
obviously the media cycles of people wanting to make news today 
on social media to be picked up by producers on traditional 
media. Could you unpack a little bit more your Derna comments, 
please?
    Mr. Gartenstein-Ross. Yes, absolutely. Derna was a case in 
which you did not have much social media penetration, so right 
away, when you look at what is being broadcast out of Derna, 
ISIS essentially started out with information dominance. That 
is because reporters really could not get into Derna to fact 
check. We actually have had two different sets of reporters who 
ventured into Derna late last year. Both of these sets of 
reporters, Tunisians and Libyans, have gotten executed within 
the past couple of weeks. Not a good place to do fact checking.
    And so when they have this information about what is 
happening and they are pushing it out, and others are not 
pushing out on social media, the way the news cycle works now, 
here is information, and there is no competing information, and 
maybe you will check with a few sources. But media moves much 
quicker than it did. It has much less fact checking, and so it 
is easier to get an invented fact out there and then to have it 
widely repeated, which I think is exactly what happened in 
Derna.
    Senator Sasse. Dr. Bergen, this is not to put you on the 
spot because I do not know how CNN covered the issue, but could 
you walk us through how decisions in a circumstance like that 
are made?
    Mr. Bergen. Yes, I am not familiar enough with CNN's 
reporting on that. As a general matter, CNN has a very careful 
fact-checking process.
    Senator Sasse. But you do not know if you all reported that 
ISIS had taken Derna?
    Mr. Bergen. I am not here to comment on CNN's reporting on 
that.
    Senator Sasse. OK. Dr. Gartenstein-Ross, one of the things 
that is unique about ISIL versus al-Qaeda in Iraq previously is 
obviously a more decentralized network structure as opposed to 
a more top-down structure. Obviously, that creates unique 
opportunities for them to capture entrepreneurial activity on 
social media. At the same time, it seems harder for them to 
control their brand. So they have a deficit in terms of trying 
to have a territorial claim with the caliphate, but to the 
degree that they have a more decentralized structure and can 
exploit social media over time, do you think that means that 
their brand becomes defuse? Or if they can suffer losses 
because they will eventually suffer territorial losses, what 
does that do to their larger social media strategy?
    Mr. Gartenstein-Ross. So I would conceptualize them as 
having both a centralized and also decentralized structure. On 
the one hand, they have a bureaucratic system. They have 
systems of governance. They have official accounts. Then you 
have the vast number of people who are fighters who are 
tweeting from the battlefield, and they have put directives in 
place--it is actually very clear--to try to rein some of these 
guys in. But at the end of the day, when you have a large 
number of people who are on Twitter, it is difficult to fully 
control your message. That is something that the U.S. military 
also grapples with as well, and just like ISIS, we have 
directives, although we have an easier job of reining our guys 
in, obviously.
    With respect to ISIS' brand, I think that it has a 
trajectory of its brand overall that is being affected by 
people at multiple layers, those who are at the center of its 
communications apparatus and those who are on the fringes. And 
so the answer is yes, it absolutely has more difficulty 
controlling its brand, and especially because--I referenced 
before the statement by al-Jahbadhi, the supporter of ISIS who 
is trying to say, OK, do not broadcast the enemy's atrocities, 
do not broadcast how hard life is in cities that are under 
siege; only broadcast strength. If you look at my argument that 
theirs is a winner's message, that is a very hard message to 
enforce when that is not actually what is going on, because you 
do not just have ISIS fighters; you also have people who are 
living in these cities, and you can see that some resistance 
movements have sprung up. They are going to have a hard time 
keeping their message the same. Just like we have trouble 
controlling them on social media, they are increasingly--as 
they are entrenched as a governing force and a failing 
governing force, they are having the same trouble. Suddenly, 
they are the counterinsurgents, and they are experiencing 
something like insurgent activity. Now, I do not want to 
overstate the dissension within the ranks, but you clearly have 
it. And they have had this for a while. It is just that it is 
increasing now.
    Senator Sasse. Mr. Shaikh, I would be interested in your 
thoughts on that question.
    Mr. Shaikh. Thank you, sir. Yes, of course, I agree very 
much, with what Daveed was saying. I think we need to continue 
to amplify the mistakes they make, the weakness in the ranks, 
the dissension in the ranks, especially when it comes to 
educating potential recruits, individuals, teenagers who may 
want to travel. In the beginning, when a lot of this began, 
there was a concept called ``five-star jihad'' where they were 
putting out--they had taken over some guy's villa, and they 
were swimming in a nice pool in the back, and they were saying, 
``Hey, come on down.'' And for a while I actually took a lot of 
screen grabs of food pictures that they had posted. We had 
Swedish Gummi Bears from Swedish jihadis. We had guys posting 
kebabs, ``Yes, we got that,'' or a mango milk shake and saying, 
``How could I not take a picture of that?'' Or, the epitome of 
an identity crisis where you have a Pakistani ethnicity U.K. 
resident living in Syria, referring to pizza as ``home-cooked 
food.''
    So I think to educate people just by using their own 
mistakes, their own failings, this is another way in which we 
can achieve our objective.
    Senator Sasse. Thank you. Thank you, Mr. Chairman.
    Chairman Johnson. Thank you, Senator Sasse.
    Senator Peters.

              OPENING STATEMENT OF SENATOR PETERS

    Senator Peters. Thank you, Mr. Chairman, and thank you to 
the panelists for your testimony today.
    I wanted to explore a little bit more in depth about some 
of the countermessaging that we need to do, particularly with 
the broader Muslim community here in the United States. I think 
it is important to remember when we are talking about folks who 
are engaged in these activities with extremism, it is just a 
tiny sliver of the Muslim community here in the United States. 
I have a very large Middle Eastern population in Michigan, one 
of the largest Middle Eastern populations outside the Middle 
East, as you know, in my community. And it certainly is an 
opportunity for us to harness that community, which is strongly 
opposed to ISIS and other extremist groups. In fact, there are 
regular protests against the activities of ISIS as a perversion 
of Islam and not reflective of the broader Muslim community. 
Folks want to be engaged in that countermessaging, which I 
think ultimately is the way you try to de-legitimize the 
ideology associated with it.
    I know the White House has made this type of outreach a 
priority with their ``Empowering Local Partners to Prevent 
Violent Extremism'' efforts. It was also part of the summit on 
Countering Violent Extremism this year at the White House 
Summit. But a 2013 RAND Corporation report highlights 
challenges to countering violent extremism online, including 
alienation and lack of trust in the United States approach to 
counterterrorism among American Muslims as well as the 
oversecuritized approach to government engagement with the 
Muslim community.
    I have heard from some of my constituents who are concerned 
about pushing back sometimes against this violent extremism and 
these lies online because they think it might draw some undue 
attention to them personally as they engage, even though these 
are anti-messaging that they are doing. Some of them have also 
experienced racial profiling, other activities at airports 
because of their Muslim heritage, and so have certainly some 
level of distrust when it comes to the law enforcement 
activities, and yet this is an incredible opportunity for us to 
use patriotic Americans, Muslim Americans, who live here in our 
country.
    If the panel could address a little bit, how can we engage 
this community? What would you suggest? What are the messages 
that will be important? Perhaps, Mr. Shaikh, you have dealt 
with this, and we can start with you. But others who would like 
to weigh in, I would certainly like to have other comments as 
well.
    Mr. Shaikh. Thank you very much. I am actually doing my 
Ph.D. in psychology, and I am looking at community interveners 
and what works in intervention programs. And there is this, I 
call them, ``professional obstructionists,'' community 
organizations who--I mean, they are hyper-defensive. They 
really mistrust the government, and have portrayed any kind of 
even meaningful, sincere interactions between law enforcement 
and the community as just an excuse to intelligence-gather. So 
given that level of mistrust how can we do it? And I think 
there is a way to do it.
    First and foremost, the Muslim community understands--as 
you have observed, the Muslim community does not want anything 
to do with ISIS, and really, if you look at the tens of 
millions of Muslims that are living in Europe and North America 
in total, we have a maximum amount of 5,000 Western foreign 
fighters. That is a very small number of people.
    So I think first and foremost, the Muslim community needs 
to understand that it affects us first and foremost, I think. I 
mean, ISIS kills more Muslims than non-Muslims. And when they 
do what they do, it is the Muslim community that feels the 
retaliation, the discrimination, the marginalization. So it is 
a responsibility I think it is on behalf of the religion. I 
mean, we have a duty to speak up and give the correct 
understanding of the religion, lead by example.
    And there is a way to still work with law enforcement, but 
at the same time keep them at arm's length, and that is, to use 
programming that is developed in-house, in the communities, 
where the law enforcement agencies understand what the 
communities are using so that they can back up and say, yes, we 
understand that they have this, identifying vulnerable persons 
guide, let us say, and we understand that they have a mechanism 
in place where they can give rehabilitative programming without 
it necessarily being a top-down approach.
    And, just last, I mean, of course, people have their views, 
free speech, of course, but we have to be very careful not to 
perpetuate the ISIS ideology, which is Islam is to blame, 
because if we do that and we say that, yes, Muslims are 
terrorists and Islam is all about terrorism, that is exactly 
what ISIS says. In fact, I have seen that you have people who 
are very anti-Muslim, they even use the exact same verses of 
the Quran that ISIS uses. And if you did not see the name, you 
would swear that it was an ISIS account doing the promoting.
    So I think there are multiple layers to this, and it can be 
done, but it needs solid direction, I think, and community 
leadership.
    Senator Peters. And direction from within the community.
    Mr. Shaikh. Within the community, yes.
    Senator Peters. It is an organic process.
    Mr. Shaikh. Yes.
    Senator Peters. But also in that process, law enforcement 
here in the United States understands to let the community lead 
and back it up and to back off, if I am rephrasing what you 
said accurately.
    Mr. Shaikh. Yes, just a closing point on this. Local police 
I think are best suited for this because the local police are 
the ones who will respond if somebody throws a rock through the 
mosque or if there is a crime that happens in the community. 
They are not seen as investigating terrorism like the FBI might 
be. The FBI will have big problems in dealing with them at that 
level.
    So there is a way to develop those relationships, and it 
needs to be done.
    Senator Peters. Thank you.
    Does anybody else want to add to that?
    Mr. Bergen. Just to give a couple of specific examples 
about some of the things Mubin is talking about. We cannot take 
down all bad speech, even though that is desirable, but we can 
also help reinforce better speech. So two examples:
    Rabia Chaudry is a Maryland-based Muslim American lawyer 
who goes around the country training Muslim American leaders 
and imams, many of whom do not really understand how the 
Internet works, about how to use it themselves, Google rankings 
and these kinds of things. So that is one very concrete thing. 
It is very hard to measure countering violent extremism. The 
success is where nothing happens. But this I think is an 
example of something that is concrete and working.
    Another is a woman called Nadia Oweidat, who is a D.Phil. 
from Oxford, who is aggregating all satirical content about 
ISIS in Arabic online, because satire is a very powerful weapon 
against this kind of group.
    And, finally, for the U.S. Government, the U.S. Government 
cannot engage in any kind of theological debate for all sorts 
of obvious reasons, but the message that U.S. Government 
officials should constantly say is, ``This group positions 
itself as the defender of Islam, but its victims are 
overwhelmingly Muslim.'' It is a factually correct statement 
that requires no special knowledge of Islam, and I think it is 
a powerfully undercutting message for what this group is trying 
to say about themselves to the Muslim world.
    Senator Peters. Thank you. I am out of time.
    Chairman Johnson. Thank you, Senator Peters. Senator 
Booker.

              OPENING STATEMENT OF SENATOR BOOKER

    Senator Booker. I want to jump right in. I have to say, in 
preparing for this hearing, I was surprised if not stunned at 
how we are approaching our messaging and our countermessaging, 
frankly. I find that there are about 2.9 million Muslims living 
in the United States, and half of them are under 30. We are 
talking about a very young population.
    Now, I agree with Senator Peters, the overwhelming 99-
point-whatever percent are good young people that reflect the 
rest of the population. But we are dealing with a population of 
young people that are online and engaged in an extraordinary 
manner. And in the Middle East, you have an even greater 
percentage of people that are under 30 years old, and the new 
form of communication is social media. Ninety percent of 
Americans aged 18 to 29 use social media. Nine in 10 18- to 29-
year-olds watch online video, and almost half of them, that is 
where they get their news.
    And I know a little bit about social media, I have to say, 
and when I started going around to the sites that we have in 
our various agencies--DHS, National Counterterrorism Center, 
State Department--I was shocked at our countermessaging.
    I want to pass this iPad around to my colleagues, and 
support two things to take note of. There are two tabs at the 
top, and you can toggle between them. One is a YouTube video, 
and there are hundreds of hours going up every minute on 
YouTube. The videos that ISIS is producing are incredibly 
slick, fancy, and attractive. Here on this video are terrorists 
giving out things to kids and sharing and the like.\1\
---------------------------------------------------------------------------
    \1\ The information submitted by Senator Booker appears in the 
Appendix on page 101.
---------------------------------------------------------------------------
    If you toggle back over, here is the ``Think Again Turn 
Away'' website by the Department of State. If you know anything 
about social media, one of the things you should look at is the 
engagement of people on our social media feeds, the engagement 
here is laughable--three retweets, two retweets.
    Now, if you think about this, last year, or fiscal year 
(FY) 2013 we spent $196 million on Voice of America. This is 
old-school media. It is radio and the like. And, Mr. 
Gartenstein-Ross, maybe you know, how much money are we 
investing and appropriating for social media countermessaging?
    Mr. Gartenstein-Ross. They do not specifically budget out 
social media separately, but it is clear that it is a small 
percentage of what is being done. And, further, as you point 
out, a lot of times what we push out via social media is very 
crude.
    Senator Booker. I mean ``crude'' is a generous statement. 
You said a wonderful phrase. You said, ``We need to compete at 
the speed of social media. Mr. Bergen, you said in your written 
testimony that the one thing that unifies these folks is their 
age and that they are online. And you would think that if this 
is one of the threats, and we have asked counterterrorism 
experts from the United States, what is their biggest concern, 
it is domestic lone wolf individuals. Online in social media is 
where the majority of them are getting radicalized. If we have 
an inadequate response to that, it is very frustrating.
    Now, Mr. Shaikh your work is incredible. I see you online 
trying to push back on this. There are easy tactics--I know 
them, as you said, from politics--for how to get more voice and 
virality to messaging. We are not using these tactics as 
government to get countermessages out there. The data that you 
are presenting regarding Muslims killing Muslims, and ISIS is a 
group that is killing more Muslims, shows they get their memes 
to go more viral. Look at their fancy memes and our lack of 
compelling contact.
    And so I just want to start with Mr. Shaikh. It looks like 
to me that you are trying to do countermessaging, but we have a 
government that is spending millions and millions of dollars on 
old-school forms of media, and as you said, Mr. Gartenstein-
Ross, very crude social media efforts. What do you imagine 
could be done if we were to do an effective social media online 
countermessaging effort?
    Mr. Shaikh. Thank you very much. In some kind of defense to 
the Center for Strategic Counterterrorism Communications, they 
have a very small group of people. They are trying to contest 
this space, and they are trying to do something. And I get 
that. And yes, ``crude'' is a very polite statement.
    Look, at the end of the day, if you want to fight back 
against recruitment of 15-year-old kids, you need to work with 
15-year-old kids. When I see my own kids showing examples of 
what affects them and what motivates them and what resonates 
with them, it tells me that this is exactly what you need to 
do. Talk to the kids. They can do a really good job.
    With respect to producing material, one of the comments 
that I said was, I mean, really I feel that it is unacceptable, 
especially given--I mean, you have Hollywood in the United 
States. I mean, yes, you do not even need to go at that level. 
Maybe this is something that should be done to go at that 
level, I mean, to blow the production capabilities out of the 
water.
    But even college levels, high school kids, to be given 
projects for them to do, just as part of a school project, as 
part of a civic engagement process, even Muslim organizations. 
I mean, maybe you have NGO's who could fund projects within the 
community to come up with these sorts of things.
    The government is really not well placed other than if you 
were to take it to the covert level of psychological operations 
and then you do have individuals who know influence activities, 
who know to generate stuff which they can deploy but in a more 
covert manner. So, again, multiple layers, there is a way to do 
it, but----
    Senator Booker. And, Mr. Bergen, I have very little time 
left, but when I was mayor of Newark, we saw that the mentions 
of our city were incredibly negative, and we set out on social 
media to change that. We used a simple sentiment analysis to 
see that engagement in social media began to change the brand 
of our city. You talk a little bit in your testimony about 
crowding out the negative messages, and I have seen people do 
this in many different forms. There are lots of different 
strategies. How do you characterize what we are doing to crowd 
out the negative messages, to arm many of the people within the 
American Muslim community and others to compete within this 
space to begin to push other messages? How would you describe 
our attempts? And is there a better way to centralize and 
coordinate across numerous agencies a better push from the 
United States?
    Mr. Bergen. ``Nascent'' is how I would characterize what we 
are doing. NCTC has been doing some of this work and trying to 
work with some of the tech companies and the Muslim American 
Community. But, there is a kiss of death problem with the U.S. 
Government being involved. So it has to be hands-off. And it is 
beginning. It is not all doom and gloom. There are people out 
there doing the kind of work that is necessary.
    Senator Booker. OK. Chairman, thank you very much.
    Chairman Johnson. Thank you, Senator Booker.
    There is an obvious piece of legislation that we need to 
start working on. I have already directed the staff. But let us 
face it. We invented the Internet. We invented these social 
network sites. We have Hollywood. We have the capabilities, as 
Mr. Shaikh was saying, to blow these guys out of the water from 
the standpoint of communications. So we need to work on that, 
and we need to work on that quickly. So I hope you will engage 
in that effort. Senator Ayotte.

              OPENING STATEMENT OF SENATOR AYOTTE

    Senator Ayotte. I want to thank the Chairman, and I 
appreciate Senator Booker's comments as well. It strikes me, 
though, in hearing your answers, it makes sense that this is 
not going to just be a government function, because government 
is not particularly good at some of these updated uses of 
technology. So I think engaging the private sector, engaging 
NGO's and others to help us do that, and we can provide the 
support for that, but I think that would be great to establish 
those partnerships to be able to make that happen.
    I was very interested in reading, in your testimony 
especially, Mr. Bergen, about women, that there seems to be an 
attraction for young women that they are recruiting with more 
than, I think, a historical basis to ISIS. Can you talk to me 
about that? And it seems to me that as I look at some of these 
uses on social media, they almost romanticize what is happening 
over in Iraq and Syria and what these women who might want to 
either join or, I guess, connect themselves in the United 
States or in some other Western country with ISIS. So it 
strikes me that the more we can get the truth out also, whether 
it is embedding reporters or what are really the conditions--I 
know it is very dangerous so that is challenging. But however 
we can get the truth out about what is really happening on the 
ground in the caliphate, that this is not some kind of romantic 
endeavor that you are probably traveling to or asking to engage 
in. So I wanted to get thoughts on how we address this with 
women.
    Mr. Bergen. Well, that is right, Senator. So 20 percent of 
the sample we looked at from the United States are women and 
about 10 percent overall from the West are women, which is 
unprecedented. And why are they going there? They have been 
told it is a perfect society. They may want to meet their 
perfect marriage partner. All of these are very young. The 
average age is 19. But how do we contest that? I think you are 
exactly right. People like Mubin Shaikh and, disillusioned 
former militants who can actually speak the truth about what is 
happening and amplifying their voices, that is by far the most 
effective thing we can do. So it is finding those people, and 
there are already people coming back who--we saw this in the 
Minnesota case, Senator Johnson, when people started saying, 
well, wait a minute, Shabaab is not the Promised Land.
    But it took 2 or 3 years before the message--and I am sure 
J.M. Berger can amplify on this. But we are at the point where 
there are enough bad stories coming out that I think that is a 
reasonable kind of idea, which is amplifying the voices of 
disillusioned militants.
    Mr. Berger. Yes, I think when we are looking at trying to 
undermine ISIS' messaging, one problem we have is that the 
information we have that does undermine their projection of 
strength, of this utopian society, is mostly eyewitness 
testimony from defectors. That is not as compelling as 
photographs, video, and audio. And so, one of the things that I 
proposed is that inasmuch as we can deploy intelligence assets 
to get pictures of what is going on in these area, intercepted 
communications, things that are much more gripping and much 
more compelling, instead of just one person's story, which is 
easy for a radical to dismiss because radicals are already 
convinced that they have the right idea anyway.
    Mr. Bergen. If I could jump in, on the flip side of this, 
there is a wonderful site called ``Silently Slaughtering 
Raqqa,'' which is a Twitter feed of what is really going on in 
Iraq. There are pictures of bread lines. They are saying, hey, 
the electricity is only on for 3 hours a day. So the point is 
that there is an alternative universe on social media that is 
portraying what is really happening that exists and we should 
understand and know about.
    Senator Ayotte. Absolutely, and we should promote it and 
encourage people to see what really is happening, because I 
think there is sort of a romanticized view being pushed out 
there that is attractive to people.
    I wanted to get your thoughts, all of you, on the leader of 
ISIS, Al-Baghdadi. They are using social media, using 
information to put out a certain image of him that does not 
line up with the truth. What is your thought on the leader? I 
understand we take out a leader and another leader can follow, 
but he seems to have portrayed himself in a certain way. What 
thoughts do you have for us to try to undermine the leadership 
to show that they are not really who they purport to be?
    Mr. Berger. So I think Baghdadi is kind of an interesting 
figure in this context. In some ways, he is kind of an empty 
suit or a Rorschach test. He has a basic biography which is 
carefully calculated to support the legitimacy of naming him 
caliph. We know a little bit more about him through independent 
reporting, but the image that he projects is really somebody 
who appears rarely, who speaks in jihadist platitudes, and as 
such, he is somewhat replaceable. You can bring your 
expectations to who he is and understand him in the context 
that you want. He does not have the same powerful personality 
that somebody like Osama bin Laden did. He is replaceable. I 
would assume that ISIS has a plan for his succession because 
they do have to meet certain criteria to replace a caliph. It 
is not like al-Qaeda where you can just give the guy who has 
the most seniority the job. And he may be an important 
strategic thinker in the group. I mean, there are some reasons 
to think that. So replacing him may undercut their ability to 
operate, but it may not.
    Senator Ayotte. I think we touched on this earlier, but how 
important in all this context is it that we--thinking about 
what ISIS is doing actually on the ground and trying to 
establish this caliphate in Iraq and Syria--I serve on the 
Armed Services Committee as well--that we continue to work with 
our partners there to actually diminish their capacity. Because 
I think I heard one of you say that the fact that they control 
territory gives them a greater ability to recruit because it 
shows their legitimacy. So it is almost like we have to be 
addressing this on all fronts, it seems.
    Mr. Bergen. I think the short answer is yes to that.
    Mr. Berger. One element of this that I would just bring up, 
because we have talked a lot about how their loss of territory 
would undermine their recruiting, and it would. But ISIS is 
also an apocalyptic millenarian group, and traditionally what 
happens with groups like this is when the prophecies that they 
are fulfilling turn out not to be correct, they will often 
double down on violence. So ISIS could lose its territory. We 
could undercut its recruiting. But we could see very disastrous 
secondary effects to that.
    Senator Ayotte. We have seen that with al-Qaeda as well.
    Mr. Berger. We see it with Al-Shabaab, and Al-Shabaab does 
not have the same platform or prophecy that ISIS has built 
itself on, so yes.
    Senator Ayotte. Great. Thank you.
    Chairman Johnson. Thank you, Senator Ayotte. Senator 
Portman.

              OPENING STATEMENT OF SENATOR PORTMAN

    Senator Portman. Thanks, Mr. Chairman. Thanks for having 
the hearing. This has been fascinating, and I really appreciate 
the experts coming and talking to us about this.
    Let me just give you an interesting case study from Ohio, 
the middle of the country. Like every other State here, we are 
concerned about radicalization, and there were recently two 
cases. One is Christopher Lee Cornell, as some of you know, a 
20-year-old in Cincinnati, Ohio, my home town, wanted to come 
here and bomb the Capitol. That happened earlier this year. He 
is now under arrest.
    Just last month, Abdirahman Sheik Mohamud of Columbus was 
indicted on Federal charges. He actually became the first 
American, as I understand it, accused of training in Syria and 
then returning to try to conduct a terrorist attack here in the 
United States.
    So one is a classic lone wolf, right? So he is on the 
Internet, gets radicalized, a loner. The second is a member of 
a community in central Ohio, as I understand it, the Somali 
community. I know a number of members of that community. They 
are very concerned about the radicalization. They are engaged 
and involved in it. The leaders are working hard to have a 
productive dialogue about it. Some of the things you all talked 
about they are doing. And it is two very different challenges, 
and we have talked more about the community one, and I would 
like to hear more about that if you have thoughts, but also 
about the lone wolf. And maybe this goes to more of what 
Senator Booker was talking about. I looked at your appendices, 
Mr. Shaikh, and unbelievable, the kinds of stuff that they are 
doing. And we certainly have the capability to do more with 
more resources.
    So I guess my first question would be: Do you view these as 
two distinct challenges, two very different strategies, and 
just assessing the two strategies? And a subpart of that would 
be a specific question I have always had. You have three 
groups--DHS, NCTC, and FBI--all working together to try to 
support these community outreach programs, understanding that, 
as Mr. Shaikh said, local police are the face of it, but to get 
these best practices and the expertise, frankly, our local 
communities are not going to have the access to that. Are they 
doing a good job coordinating? Or should there be one agency 
that has more responsibility and, therefore, accountability? 
And I will really open it up. I would like to hear from all of 
you.
    Mr. Bergen. Training overseas makes you more dangerous. We 
saw in Paris that the fact that one of the perpetrators had 
trained with al-Qaeda in Yemen made it a much more effective 
attack. So, yes, they are very different, and lone wolves have 
a natural ceiling to what they can do because they are 
operating alone and they do not have an organization and they 
usually do not have training. So they are two separate issues.
    I am glad you mentioned, Senator Portman, Mr. Mohamud from 
Cincinnati, Ohio, because he is the only returnee who has come 
back to the United States who is alleged to have plotted an 
attack.
    Senator Portman. Columbus.
    Mr. Bergen. Columbus. Pardon me, sir. Crucially, he was 
trained by Nusra, which we have not really talked about today, 
which is the al-Qaeda affiliate in Syria. So, the focus is a 
lot on ISIS, but the two cases of Americans coming back to the 
United States, one of whom did not plot anything here, one who 
is alleged to, were both Nusra. So we need to keep that in 
mind.
    Senator Portman. This is particularly troubling and 
interesting because it was not Al-Shabaab, even though, as I 
understand it, he came from the Somali community, and you would 
have thought it would have been Al-Shabaab.
    Mr. Berger. I think in that particular case it was not 
clear in the court documents exactly who he had trained with. 
He had started with Nusra, and then he went to an unspecified 
training camp and talked to unspecified clerics while he was 
posting about the Islamic State.
    In terms of the problems, these are two different problems. 
We could see ISIS try and bridge the two to coordinate loosely 
lone wolf-type activity with organized-type terrorist activity. 
In the case of this returnee, this may be a dry run to see what 
happens when you send somebody back.
    We have seen that ISIS has had returned fighters who have 
been active in Europe. We have seen at least one case of what 
was described by investigators as an ISIS operational cell in 
Belgium. There is not much reason to think that they will not 
try this kind of thing. So, we need to sort of keep an eye on 
this as it develops.
    The lone wolf piece of it is easy for them. It is easy, it 
is something they have proven that they are pretty good at 
relative to other groups. And it is going to capture a lot of 
headlines for them without a big investment. So the question is 
how much they want to invest in attacks here, and I think that 
is pretty unclear right now. We do not have a clear bead on 
that.
    Senator Portman. Mr. Shaikh, could you talk a little about 
the coordination between DHS and the FBI and the NCTC?
    Mr. Shaikh. Yes, there is a DHS coordinator on countering 
violent extremism (CVE): David Gersten. He comes from a civil 
liberties background, which I was pleasantly surprised to see 
that DHS is putting that kind of resource in that area. The 
Office of Civil Rights and Civil Liberties is also looking at 
how to avoid the securitization aspect of it. The 
securitization aspect of it is really poisonous to the CVE 
branding, I think, as communities, if they perceive especially 
at the behest of what I call these obstructionist community 
groups who are really giving a false narrative of what the 
government is trying to do, it will continue to be a problem.
    If I could just quickly make a point on the lone wolf, what 
kind of lone wolves are we talking about? I call them ``ISIS 
zombies.'' These are the self-activating, might have mental 
health issues, really low level of competency. But then you 
could have, directed attackers who, let us say, are Syria 
returnees and do have a level of competency where just one 
person can pull off a quite effective attack.
    In Paris, of course, only two guys did what they did, so 
you could easily have a cell of, six people, three two-man 
teams, to go and do simultaneous attacks, and it would really 
cause some great disruption. So there are, again, a number of 
threats in that spectrum.
    Senator Portman. Just back to the community for a second, 
you were making the point that we need to do a better job of 
providing best practices community by community. It would be a 
local face you said was important, getting the community 
engaged and involved, and, again, I said the Somali community 
in central Ohio has been very involved, and I think in a 
productive dialogue. Is the Federal Government where, we have 
responsibility, doing an effective job of coordinating between 
the three agencies I mentioned, and perhaps even some other 
agencies that are more on the intelligence side? Is that 
working? Or should there be more accountability that comes from 
more definitive responsibility?
    Mr. Shaikh. It is working. I am positive, optimistic on 
that side. First and foremost is because there was no 
coordinator before, and so now that there is a coordinator and 
that is happening, it is a positive step. It is running into 
these issues of critics saying, this is just an excuse to 
intelligence-gather, but I think DHS and their particular 
mechanisms that are working on CVE are trying to navigate this 
space as best as possible.
    Chairman Johnson. Thank you, Senator Portman. We will start 
another round.
    Senator Portman. Thank you, Mr. Chairman.
    Chairman Johnson. I started my opening statement with a 
description of that posting with the claim that there are 71 
trained fighters, 23 have accepted assignments. Again, nobody 
knows whether that is bluster or whether it is real. I will ask 
the question: Is that an unprecedented posting? Have we seen 
similar things like that, similar threats that just simply have 
not panned out? Anybody?
    Mr. Bergen. I think we have multiple times, and I will give 
you an example. Do you remember the blackout on the east coast? 
I think it was in 2005. Some jihadi group claimed credit. So, I 
mean, merely because they say something does not mean it is 
true.
    Chairman Johnson. What about from ISIS, though, I mean 
recently? Or is that kind of unprecedented from ISIS?
    Mr. Berger. No, it is pretty precedented. The volume of 
material they put out is just truly extensive, and it comes in 
a lot of different formats. So they have made a variety of 
threats with more or less specificity over time. One of the 
reasons that it was surprising about the Garland event was that 
it was something that they had actually specifically talked 
about, but then it turned into an attack, and that is pretty 
unusual because they create so much noise that that needle in 
the haystack can be very difficult to detect.
    Chairman Johnson. So you really take that posting with a 
great deal of skepticism?
    Mr. Berger. Yes, I----
    Chairman Johnson. The attempt at a winning message.
    Mr. Berger. Yes. I think that, certainly they have dozens 
to low hundreds of passive supporters in this country, and some 
of those people may be prepared to act, but I do not think 
there is anything remotely as organized as what that post 
described.
    Chairman Johnson. Mr. Gartenstein-Ross, certainly in your 
testimony, both written and oral, you were talking about the 
rise of the brand of ISIS. But they are also very vulnerable to 
a reversal of that. I certainly hope that is true. I also 
understand strategically they have made a lot of enemies, and 
they are being attacked on a number of different fronts.
    The stated goal of this administration of America right now 
is to degrade and ultimately defeat ISIS. I have asked the 
administration officials in the past, What does defeat look 
like? Define it. I would like to have you gentlemen take a 
crack at what does defeat look like to you and how achievable 
is that. I will start with you, Mr. Gartenstein-Ross.
    Mr. Gartenstein-Ross. I think there is actually a very 
clear thing that defeat means in this context, which is not 
true of other jihadist groups. They have staked their 
legitimacy to the caliphate's continuing viability, and if the 
caliphate is no longer viable, then they can lose legitimacy 
pretty quickly. So I think that if you are able to make the 
caliphate no longer a viable entity and no longer perceived as 
a viable entity, then at that point they have in effect lost.
    Now, their narrative will not be completely dead. If you 
understand the nuances of their narrative and the end times 
argument, they have certain outs. For example, they believe 
that at some point there will be a grand battle and they 
actually will be crushed. But what essentially it means is that 
you make this already marginal movement much more marginal.
    Let me actually add one final thing, because this ties to 
the way we are conceptualizing community and lone wolves. 
Sometimes we talk about what can the community do to 
delegitimize the message. The way I would think of it is: What 
can the community do to continue to delegitimize the message? 
Because for the United States, if we had a 5-percent approval 
rating, we would think that was an awful thing. For ISIS, they 
can have a 5-percent approval rating and that is a great thing 
for them, because they are dealing with those who are very much 
on the margins. They are not even dealing with the whole 
jihadist movement. There are many within the jihadist movement 
who argue against ISIS.
    So the question really is not how do we change an entire 
community, but how do we stop this fringe group from spurring 
people to action? And that is why undermining the legitimacy of 
the caliphate actually will, in my view, have a 
disproportionate impact on their ability to remain viable as a 
movement.
    Chairman Johnson. Does anyone else have a different 
definition of ``defeat''?
    Mr. Berger. I think that we are best served by strategies 
that encourage ISIS to fail on its own terms. Cutting it off 
economically--an internal collapse or a major schism inside the 
group I think would be better for us than a forcible ejection 
from their territory, especially if that ejection was done 
primarily through American military----
    Chairman Johnson. But that is the method, the defeat, I 
mean, how it looks like is the denial of that territory, the 
end of the caliphate, correct?
    Mr. Berger. Oh, yes, well, it is the end of their 
territory, but it is not the end of the story. I mean, they 
already have branches in--a robust presence in Nigeria, in 
Libya.
    Chairman Johnson. An important point. I am glad you pointed 
that out. Again, does anybody else have a different definition 
of ``defeat''?
    [No response.]
    So then my next question is--I am no military expert, and I 
do not think we have one on the panel. You have expertise that 
has been very valuable here. How far away are we from that 
definition of ``defeat''?
    Mr. Gartenstein-Ross. As you said, I do not think anyone on 
this panel can say, but I can point to a few things we should 
look to.
    No. 1, looking to internal resistance movements is very 
important. I agree with J.M. Berger that, at the end of the 
day, if the defeat comes from within, that is going to be a 
much more resounding defeat.
    Chairman Johnson. But how possible is that?
    Mr. Gartenstein-Ross. We already see resistance movements 
in some areas. Now, the question is how--there are two things 
to this. No. 1 is how robust are they. In the past we saw very 
robust resistance movements to AQI, but the United States also 
played a role in helping to ensure that they were not 
destroyed.
    The second thing I should warn is I think a lot of these 
resistance movements are also people we do not like. You have, 
on the one hand, probably Ba'athist resistance movements, and I 
would say almost certainly you have al-Qaeda resistance 
movements, which plays into the broader struggle within 
jihadism.
    But that being said, looking to internal dissent, looking 
to, No. 2, internal squabbles--there was a question before 
about Baghdadi, and while I think that Baghdadi is replaceable, 
once you have a succession, especially within an organization 
like this, which has a cult of personality internally, that 
might cause some greater fragmentation within ISIS, which could 
be a good thing in terms of the defeat of ISIS specifically.
    The final thing we could look to is, given that they are a 
bit overstretched militarily, you could possibly see rapid 
reversals, just like when the United States engaged in its 
campaigns early in the Iraq war and the Afghanistan war, and 
also even in Libya, there were very rapid reversals of the 
enemy that was trying to hold territory. It is hard to hold 
territory, particularly when your population is not 
particularly happy with what you are doing.
    Chairman Johnson. I do have a remaining second, so I just 
have to ask this question: Mr. Shaikh, talk about engagement 
with communities; understanding local police better, how to 
have a coordinated effort, and how do we find more Mubin 
Shaikhs? How do we find more people like you that have had a 
change of heart and that have your capacity and your capability 
and your willingness to really appeal and try and turn people 
away from this?
    Mr. Shaikh. I wish we could clone me. [Laughter.]
    Chairman Johnson. I think we all do as well.
    Mr. Shaikh. I tried to do the right thing. I got here 
because I believe I did make the right decisions. And it came 
at a lot of personal cost, I will be honest, and I think a lot 
of people may not be ready to do that.
    I think, when we say empowerment, I think it needs to be 
made clear for a lot of these individuals who are back and 
really the intelligence community knows who these people are 
after they have been vetted and maybe they need to have 
continual monitoring, but to have them step up, go to Muslim 
conferences, let them be seen on media, mainstream media, where 
people hear the message. I do not want to be the only person. A 
lot of times I feel frustrated. I see, I am the only guy doing 
it. Everyone is talking about countermessaging. Nobody is 
really doing enough of it. But there are others like me out 
there. They just do not know how to come forward, and so they 
will need some direction to do that.
    Chairman Johnson. I think I speak for all of us when I say 
God bless you for what you are doing. Senator Carper.
    Senator Carper. I am Tom Carper, and I approve that 
message. God bless you.
    This is one for all of you, please, and I just want to say, 
Mr. Shaikh, do you pronounce your name ``Mu-BEAN'' or ``MOO-
bin.''
    Mr. Shaikh. It is ``Mu-BEAN.''
    Senator Carper. Mubin, all right. Have you ever been called 
``MOO-bin''?
    Mr. Shaikh. Yes, I have. In high school it was ``MOO-bin,'' 
and then it became ``Bin,'' and then the joke was, ``1A`Bin,' 
'' like bin Laden? '' Then it stopped being funny. [Laughter.]
    Senator Carper. We have a ``Bin,'' not like bin Laden, in 
our family.
    Several of my colleagues have said that in order for the 
United States. to have a success against al-Qaeda and against 
ISIS, we must adequately define the problem and our enemy, and 
they suggest that we should unequivocally announce that the 
United States is at war with Islamic extremism or radical 
Islam. In your opinions, is it necessary or beneficial for the 
United States to define ISIS and al-Qaeda in this manner? I 
will ask you, Daveed, to go first, please.
    Mr. Gartenstein-Ross. The question really is: What is the 
benefit of doing so? I am not sure that there is a benefit in 
explicitly emphasizing that we are at war with radical Islam. 
There is the question embedded in that: What is radical Islam?
    In Libya, for example, one of the problems with one of the 
warring factions in that civil war, that being the Dignity 
faction, is that Khalifa Haftar, who is very high--he is their 
commander in chief--defines radical Islam, defines the enemy as 
including both Islamists who work in the political process and 
also jihadist organizations, which makes it, if one were to, 
say, support his organization, would make it a civil war that 
is much bloodier and much more broadly defined than it should 
be.
    Second, the administration has moved away from using 
religious rhetoric. It has tried to avoid terms like ``Islam'' 
and ``jihad'' in its own rhetoric. And I think that is a 
reasonable thing to do in terms of public messaging. The area 
where I sometimes disagree is that I think that if we as 
analysts are not able to process the ideological dimension, we 
are at a disadvantage. But in terms of public messaging, I do 
not think it is advantageous for the United States to make its 
enemy radical Islam, writ large.
    Senator Carper. Thanks. Mubin.
    Mr. Shaikh. Thank you, sir. Terrorists in Islamic Costume. 
It uses the adjective Islamic in a correct way, because I 
believe Islamic terrorism is an oxymoron. But because they are 
appealing to the Islamic sources and not the Bhagavad Gita, I 
mean, we need to see something Islam. So Terrorists in Islamic 
Costume, and if I could impose the Muslim term for these 
people, it is ``Khawarij,'' as I have in the--K-H-A-W-A-R-I-J. 
And I have given scriptural references from the Prophet--Peace 
Be Upon Him--who referred to Khawarij in the most vile terms. 
They are the dogs of hell. In fact, we believe in the Islamic 
tradition that these people subscribe to that the anti-Christ 
himself emerges from the last remnants of the Khawarij. So 
those are the two terms that I encourage using.
    Senator Carper. All right. Thanks. J.M.?
    Mr. Berger. So I do agree with Daveed that we need to 
understand the religious dimension of this as people studying 
the problem. However, in terms of public dialogue and in terms 
of the motivation of this, we must name the enemy kind of 
motif, the thing that I think about when I think about this is 
that, in 2013, I did a study of white supremacists' use of 
Twitter and found that the people who were following white 
supremacists on Twitter talked continually about and primarily 
about mainstream conservative Republican politics. And we do 
not insist that neo-Nazis be referred to as ``conservative 
radicals'' or ``Republican radicals,'' and I think that there 
is a double standard. It is easier to insist when it is a 
minority.
    Senator Carper. All right. Thanks for that. Mr. Bergen.
    Mr. Bergen. I totally endorse what has already been said. 
As a public messaging matter for the U.S. Government, it should 
be very careful about using these terms. As an analytical 
question, certainly this has something to do with Islam, 
difficult as that is to maybe say. But those are two different 
aspects of the problem.
    Senator Carper. All right. Thank you all for those 
responses.
    As you know, in religion in this country--I will not speak 
about other countries, but in the Protestant faith we have many 
flavors, Protestants. We have Methodists, Lutherans, Baptists, 
Presbyterians, and the list goes on and on and on. And when we 
think of the Muslim faith, as I understand it, it is not just 
one or two but many. But we oftentimes think of Shia and we 
think of Sunni, but I realize it is not that simple.
    But when you look at those--what is it, ISIS, al-Qaeda, if 
you look at the folks that are the jihadists and they are bent 
on--what is it, caliphate or just domination, destruction? I do 
not notice as much Shia involvement. Is that my imagination or 
not? Could you speak to that for me, one of you or both of you?
    Mr. Gartenstein-Ross. Certainly with respect to ISIS and 
al-Qaeda, you do not have Shia involvement. Both of them are 
Sunni movements. ISIS in particular is vehemently anti-Shia. 
al-Qaeda is quite anti-Shia, although has tried to constrain 
that a bit.
    When you think of Shia movements, Hezbollah is the primary 
one that is a non-state actor with state sponsorship. You also 
have Shia movements who are kind of part of our coalition in 
Iraq, these non-state Shia militias, but they pose their own 
set of problems. A lot of them are quite radical. If you look 
at what they are actually doing, they are brutalizing the Sunni 
population there, and that could make this a longer-term 
problem.
    So, yes, in terms of ISIS, al-Qaeda, absolutely. But I 
certainly would not factor out the importance of some of these 
Shia militant non-state groups. And one person who has done 
very good work on this is Phillip Smyth at the Washington 
Institute for Near East Policy, releasing a major monograph on 
this earlier this year, which I think is really essential 
reading for understanding that particular aspect of this 
conflict.
    Senator Carper. All right. Thanks.
    Last question, if I could. Mr. Berger, could you share with 
us the story of Omar Shafik Hammami, please, and your 
experiences with him, please?
    Mr. Berger. So Omar Hammami was an Alabama native. He was 
born in a family to a Syrian father and an Irish Catholic 
mother, and he became radicalized and joined Al-Shabaab. And 
where I came into the story was after he joined Al-Shabaab, he 
got there and discovered that things were not to his liking. So 
foreign fighters were not being treated well. Al-Shabaab had a 
nasty habit of assassinating al-Qaeda emissaries who had been 
sent to try and rein the group in. There was corruption and 
inconsistencies ideologically, and so he took to the Internet 
and put out a video saying, ``Look, I have all these problems 
with Al-Shabaab, and I expressed my opinions, and now they are 
trying to kill me, and I need help.'' And this plea was 
directed to al-Qaeda central. He imagined that somebody from 
al-Qaeda would come riding in to save him, which did not 
happen.
    In many ways, he was kind of a vanguard of the emergence of 
this movement on social media, and not the only one by any 
stretch, but prior to about 2012, 2013, jihadists' use of 
social media was much lower. And because of Omar but also 
because of other dissenters from the lockstep jihadi movement, 
people started getting online. They started coming online to 
argue with Omar. So Al-Shabaab dispatched people to come out 
and say, ``This guy is a liar.'' And then people popped up to 
push back on that, and it sort of escalated out from there. And 
the same thing was happening in the al-Qaeda in Iraq context on 
the jihadist forums.
    I had an extended correspondence with Hammami on social 
media, which was an unusual experience. Some of my comments 
about the remote intimacy and sort of the feeling of knowing 
somebody over social media are informed by that because, when 
you talk to somebody briefly every day or every couple of days, 
you can get a sense of them as a person, which may be 
artificial and inflated in your head. But they become much more 
real to you than somebody you are reading about or somebody you 
correspond with via post.
    Senator Carper. Very interesting. A very interesting 
hearing, and I think very informative. Thank you. Thank you 
all.
    Chairman Johnson. Thank you, Senator Carper. Senator 
Booker.
    Senator Booker. Again, I want to thank the panel so much 
for being here today, and your written testimony was so strong 
and enabled my staff to begin thinking about these issues and 
its many layers, and I am grateful for that.
    In the final minutes of this hearing, I would just like to 
ask you all, if you were a Senator--and I know that is a scary 
prospect. If you all were Senators or even in a high-level 
executive position and were looking at this issue of 
countercommunications, in light of our ``nascent'' and 
``rudimentary'' before, communications what would be the ideal 
effort? If you could push for 2 years--and the Chairperson said 
this should make us think about legislation--what specifically 
in terms of strategy and tactics would you want to see being 
implemented on a broader scale by 2016, 2017? Anybody can pick 
that up, and maybe we can go down the line. Daveed.
    Mr. Gartenstein-Ross. I think we often look at this problem 
in a way that is very inefficient and is not getting to the 
solution, and you in your previous question, Senator, spoke to 
this. I referenced the U.S. Government as a legacy industry, 
and I do not say that lightly. A lot of established companies 
have actually seen it as beneficial to essentially create a 
startup within the company, and that has been a very successful 
thing for a number of companies to do. I would point to Intuit, 
the tax company, as one that did a very good job of creating a 
very interesting tax app where people through their cell phone 
could get all tax documents. They did this, very much like a 
startup would do, by creating a unit which was a startup within 
a broader company.
    With respect to this specific issue, social media, I would 
want to see a startup within the U.S. Government, something 
where you can get the best people on board, and there are a few 
layers of that. One is: Are we able to work with the right 
people? Yesterday, I spent the morning with a Lebanese 
businessman, an owner of a media company who had these 
remarkable anti-extremism ads on his computer that his company 
had put together. He knows the region well, and he was looking 
to shop them around. But the production value was 
extraordinarily high. Are we getting the right production 
value? Do we have the right people in place? Often multiple 
things make it hard to have the right people in place.
    So one of the things I would look at is not just starting a 
startup but looking at the broader rules that prevent us as a 
government from having the best people in place to tackle these 
very thorny problems.
    Senator Booker. I want to interrupt just because I want to 
get through the whole panel, but anything that you would like 
to provide in the days after this hearing of that idea you just 
mentioned, I would love to pounce on, because I think you are 
speaking not only a truth but you are speaking an urgent truth. 
But just to move to Mubin. Mr. Shaikh.
    Mr. Shaikh. Very quickly, subject matter experts to guide 
and train government agencies, whether it is law enforcement, 
whether it is military, psychological operations, whatever it 
is, and ultimately autonomy of efforts on the ground to move at 
the speed of social media. If I can quote Bruce Lee, you know, 
``Be like water,'' formlessness, autonomy.
    Senator Booker. And I think that is a really important 
point, because somebody else mentioned that, that often you 
delegitimize the organic voices when you put a U.S. Government 
stamp on that. And I think it is really important to have 
strategies that create an atmosphere in which those organic 
voices can emerge without being delegitimized by the U.S. 
Government. Mr. Berger.
    Mr. Berger. So, yes, we are getting creamed on social 
media, not just by ISIS but also by Russia, Iran, and Syria. 
This is a difficult thing. We do not do propaganda well because 
we have principles that we adhere to that these adversaries do 
not, in terms of truthfulness, in terms of fairness.
    What we can match them on is volume. We talk about CSEC as 
an effort to counterprogram against these guys. They are 
working with a handful of Twitter accounts. What would have an 
impact and would get around some of the logjams of government 
in terms of content would be to have hundreds or thousands of 
accounts that are putting out even very innocuous messaging 
just to get us into the space and holding a presence, and we 
can refine the messaging as we go. I think there is risk 
aversion in government that prevents us from doing things that 
are experimental and daring in that space. But I think if we 
are out there in the space first, then we can figure out where 
to take the ship after that.
    Mr. Bergen. Two ideas about what to do, which are not to do 
with messaging, but have not been discussed so far. One is 
there is sort of a good-news story going on with Turkey. If you 
look at ISIS' English language propaganda, they are now saying, 
Turkish intelligence is not your friend. So this Committee 
overseas the Customs and Border Protection (CBP). We should be 
giving every technical assistance possible to Turkey and 
reinforcing and congratulating them for basically changing what 
had been a very lackadaisical approach to being a more 
proactive approach.
    The other thing we should be doing as a government is to be 
building a database of every foreign fighter from the West, 
because we know from previous jihads that one in nine foreign 
fighters returning to the West will engage in an act of 
terrorism. If that continues to be the case in this jihad, we 
need to know that a group of visa waiver countries, who exactly 
these people are, to the best of our ability.
    Senator Booker. Gentlemen, thank you very much for a really 
great panel and for your work on these issues. I am grateful. I 
have learned a lot. Thank you. Thank you, Mr. Chairman.
    Chairman Johnson. Thank you, Senator Booker.
    Again, I am very serious. We need to work on this, and I 
certainly want to engage the members of the panel and other 
experts you can put us in touch with in terms of how do we do 
this. How do we set up a Center of Excellence? Is it inside 
government? Outside of government? Do you fund it? We need to 
work on this.
    Senator Booker. I suspect it is both.
    Chairman Johnson. I agree. But, again, it is urgent, as we 
have said.
    One thing I do like to do is provide the witnesses a final 
bite at the apple here if there is something that you want to 
get off your chest, a final statement. I would start with Mr. 
Bergen.
    Mr. Bergen. Looking forward, we have a chance to not have a 
hearing like this 5 years from now about Afghanistan if we 
change, the idea that we are going to turn off the lights of 
our presence there on December 31, 2016, merely because the 
Obama Administration is going to be shortly out of office is 
crazy. The Afghans want us to stay, and we were attacked from 
there, obviously, on 9/11. It is in our interest to stay, and I 
think it is in the interest of both parties to say that we plan 
to stay. We have an agreement with the Afghans until 2024, a 
strategic partnership agreement. The work has already been laid 
out. So I would, looking forward, this is a proactive measure 
to prevent having the same kind of hearing about Afghanistan 
several years from now.
    Chairman Johnson. I hope we have learned that failed States 
are not good for our security.
    Mr. Bergen. Indeed.
    Chairman Johnson. Mr. Berger.
    Mr. Berger. I think that ISIS is kind of the harbinger of 
radical social change ahead of us and that we need to sort of 
be prepared to see what happens when people can communicate in 
these daily routine ways with people of similar interests 
around the world and you can travel to join somebody in a 
relatively easy way. I think we are going to see social 
networks and societies that are going to be sorting themselves 
out into groups that are clustered around specific interests, 
and, unfortunately, we are seeing, what I would hope would be 
the worst example of that is the first, but I think there is 
potential for a lot of interesting evolution of how we deal 
with each other as human beings that is ahead.
    Chairman Johnson. I fear that is the future reality. Mr. 
Shaikh.
    Mr. Shaikh. Thank you, sir. Very quickly on, I guess, the 
Muslim side of things, just given the things that have 
happened, we really need to pay attention to the 
marginalization narrative. I think Muslims are your best 
partners in this. I think Muslims understand that we cannot do 
it without each other. It is a common enemy. They are not going 
to think twice, if I am there with my family, I will be killed 
just along with everyone else. So we are in this together. Let 
us move together.
    Chairman Johnson. Again, help us make those connections. 
Mr. Gartenstein-Ross.
    Mr. Gartenstein-Ross. I agree with what J.M. Berger said, 
that we are in for an era of radical social change due to the 
unprecedented ability for a variety of movements to organize. 
And the question for us is: Are we up for this new era? I think 
we have grown content with a system in which a lot of things do 
not work, where we try to address problems and it gets lost 
somewhere in the bureaucracy, and there is an interagency 
process, and everyone is waiting for someone else to do 
something, and what we are getting in terms of outputs is so 
suboptimal that, if the U.S. Government were a corporation, 
people would lose their jobs.
    I think the questions are: Can we move fast enough? Are 
there too many bureaucratic obstacles? If so, what can we do to 
smash those obstacles? And are we transparent enough both 
internally, in terms of getting by within the government, and 
also externally, getting by publicly and in the broader world 
community?
    We have talked a number of times about how the United 
States has a bad brand. That is absolutely true. There is no 
question about that. But I also think that, looking at the big 
picture, we should not be content with this. The United States 
is a great country. We should not be content with the United 
States just having a bad brand and there is nothing we can do 
about it. I think that is also one of those very big issues 
that we should try to change, and we should make sure we can 
have the right people in place who can bring the right ideas. 
And right now, even having the right people in place is 
something that is hard for the government to do. That should 
change.
    Chairman Johnson. Well, again, having come from a 
manufacturing background and solved a lot of problems, there is 
a process. It starts with laying out the reality, understanding 
exactly what it is, then set yourself achievable goals. I think 
today's hearing has certainly laid out a reality here that I 
wish were not true. I wish we did not have to face it, but we 
cannot keep our head buried in the sand.
    So, again, I just want to thank the witnesses for your 
thoughtful testimony and your thoughtful answers to questions. 
Mr. Shaikh, again, thank you for doing what you are doing. 
Thank you all for doing what you are doing.
    This hearing record will remain open for 15 days until May 
22 at 5 p.m. for the submission of statements and questions for 
the record.
    This hearing is adjourned.
    [Whereupon, at 11:34 a.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------              
                              
                              
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







                                 <all>
</pre></body></html>
